               Office of lnspector General
              Corporation for National and
                   Community Service




   Audit of Costs Incurred under the
 Corporation's Training and Technical
Assistance Cooperative Agreement with
   America's Service Commissions
     (Agreement No. 00CADC0011)

           OIG Report Number 04-23


                         Prepared by:

               Office of lnspector General
              1201 New York Avenue, NW.
                        Suite 830
                 Washington, DC 20525




                                                Cnrporation for
                                               NATIONAL &r
                                                                            A




                                               COMMUNITY
                                               SERVICE-

This report was issued to Corporation management on September 20, 2004.
Under the laws and regulations governing audit follow up, the Corporation is to
make final management decisions on the report's findings and
recommendations no later than March 20, 2005, and complete its corrective
actions by September 20, 2005. Consequently, the reported findings do not
necessarily represent the final resolution of the issues presented.
                                      NATIONAL &r
                                      COMMUNITY
                                      SERVICE-



                                       September 20,2004



TO:            Peg Rosenberry
               Director, Office of Grants Management

FROM:          J. Russell George 9.   dqh+
               Inspector General

SUBJECT:       Final Audit Report 04-23, Audit of Costs Incurred under the Corporation's
               Training and Technical Assistance Cooperative Agreement with America's
               Service Commissions (Agreement No. 00CADC0011)


Attached is the Final Audit Report 04-23, Audit of Costs Incurred under the Corporation's
Training and Technical Assistance Cooperative Agreement with America's Service Commissions
(Agreement No. OOCADCOOl 1).

If you have any questions pertaining to this report, please contact me at extension 390.


Enclosure

cc:     Andrew Kleine, Acting Chief Financial Officer




                       1201 New York Avenue, W V , Suite 830  *
                                                             \Vashington, DC 20525
                          202-606-5000     *
                                         Hotlinc 800-452-8210 + www.cncsig.gov
                            Senior Corps   * AmeriCorps * Learn and Serve America
                 Audit of Costs Incurred under the Corporation's
          Training and Technical Assistance Cooperative Agreement with
                         America's Service Commissions
                               (Agreement No. 00CADC0011)




Ms. Margaret Rosenberry
Office of Grants Management
Corporation for National and Community Service
1201 New York Ave., NW.
Washington, DC 20525

Dear Ms. Rosenberry:

        The Office of Inspector General (OIG) perfomied an audit of costs incurred by
America's Service Commissions (ASC) under the Corporation's Cooperative Agreement
No. 00CADC0011 for the period June 1,2000, through December 3 1, 2003. The primary
objectives of the audit were to express an opinion on whether the Schedule of Incurred
Costs fairly presents expenditures incurred under this award for the period under audit, in
conformity with the terms and conditions of the cooperative agreement. In planning and
performing the audit, we also considered the recipient's internal controls over financial
reporting and its compliance with applicable Federal laws, regulations, and award
provisiohs. We conducted our audit in accordance with Generally Accepted Government
Auditing Standards issued by the Comptroller General of the United States.

        The Corporation for National and Community Service (Corporation) and ASC
provided written comments on our draft audit report. We considered these comments in
finalizing the audit report and have included them as appendices to the report.

                                     Results in Brief

       The Office of Inspector General's audit showed that, after receiving $1.2 million
of Federal grant funding over a three-and-a-half year period, ASC had not established and
maintained the financial systems and management controls required to properly account
for Federal funds. As a result, we were unable to express an opinion on the costs
incurred as recorded in ASC's general ledger and summarized in the Schedule of
Incurred Costs (included as Schedule A of this report). While the audit noted that ASC
conducted extensive training activities under the cooperative agreement, we are
questioning $582,13 1 of the $1,188,455 of expenditures incurred under the agreement
due to poor accountability of Federal funds and noncompliance with Federal cost
principles. The $582,13 1 of questioned costs includes salary allocated to the cooperative
agreement without required supporting documentation, extensive consulting costs,
duplicative reporting of certain costs, and several instances of lobbymg costs.
       An exit conference was held with representatives of ASC and the Corporation on
May 28, 2004. ASC provided written comments on information presented at the exit
conference, which were considered in the preparation of the draft report. The official
ASC response and the Corporation response to the draft audit report are included as
Appendices A and B, respectively.

         In response to the audit, the Corporation has suspended funding to ASC and will
review the questioned costs along with ASC7scomments. The Corporation also revised
several control procedures. Specifically, the Office of Grants Management intends to: (1)
more closely monitor all first-time recipients of Federal grant funding; and (2) document
its review of financial reports when determining whether recipients are required to
undergo audits in accordance with Office of Management and Budget Circular A-133.
To further strengthen related controls, the Corporation is recompeting its training and
technical service cooperative agreements later this year, with accountability as a key
selection factor. Future cooperative agreements will also incorporate more stringent
budget plans that are directly linked to performance objectives and supported by detailed
periodic expense reporting.

        In its response to the draft audit report, ASC management acknowledged certain
deficiencies in the implementation of its management control systems and advised that
ASC's Executive Director had recently resigned. ASC noted that management control
systems had been established and codified as formal policy, and it had estabiished a
detailed corrective action plan to address systemic deficiencies found during the audit.
The management of ASC concurred with the recommended disallowance of $1 59,488 in
grant costs and provided additional documentation and explanations regarding the
remaining questioned costs. Management of ASC also proposed $55,137 in additional
expenses based on a reallocation of certain administrative costs. As part of the audit
resolution process, the Corporation's Office of Grants Management will determine
whether the remaining questioned costs are allocable and allowable under the cooperative
agreement.

                                      Background

        America's Service Commissions is a nonprofit organization with tax-exempt
status under Section 501(c)(3) of the Internal Revenue Code. Its stated purpose is to
represent, strengthen, and advocate for the State commissions established under the
National and Community Service Act of 1990, as amended, as these commissions
administer each State's AmeriCorps programs. To accomplish this purpose, ASC
receives the majority of its funding from the Corporation, with additional support
provided by various foundations.
        The Corporation provides financial support to ASC both directly and indirectly.
The direct support is provided through a Corporation-awarded cooperative agreement.'
The indirect support is provided through Corporation-funded membership fees paid to
ASC by State commissions. The cooperative agreement restricts associated funding to
specific agreed-upon purposes, while the income from Corporation-funded membership
fees is administered separately as unrestricted funding. We limited our audit to funding
provided under the cooperative agreement.

       In June 2000, the Corporation awarded a cooperative agreement to ASC to
support training and technical assistance of State service commissions throughout the
United States. This training is largely designed as a peer-to-peer program, where
commissioners or State commission staff with specific expertise instruct their
counterparts in other State commissions. Under the cooperative agreement, ASC has
developed standard curricula, identified individuals to serve as trainers, established a
mechanism for State commissions to request specific training, and paid associated travel
costs. The program has also evolved to include additional training components, such as
leadership development programs and regional and national training conferences.

         The Corporation awarded the cooperative agreement under Subtitle H, Investment
for Quality and Innovation, of the National and Community Service Act of 1990, as
 amended.2 Subtitle H funding is intended to improve the quality of national service
 programs, as well as support innovative and model programs. As of December 31,2003,
 obligations and expenditures under this award totaled $1,3 14,902 and $1,188,455,
 respectively.

                           Office of Inspector General Report on the
                                   Schedule of Incurred Costs

       We audited costs incurred by ASC under Corporation Cooperative Agreement
No. OOCADCOOZ 1 for the period June 1,2000, through December 3 1,2003. These
amounts are summarized in the Schedule of Incurred Costs shown below. Accounting for
and reporting these costs is the responsibility of ASC management.

        America's Service Commissions failed to establish and maintain adequate
financial systems and management control over: (1) recording transactions in the general
ledger; (2) assigning costs to specific funding sources and cost objectives; and (3)
assessing expenditures for consistency with applicable Federal cost principles3 and the
cooperative agreement's terms and conditions. As a result, the audit questions $582,13 1
of the $1,188,455 reported as incurred under the award. Details of these questioned costs
and associated control deficiencies are presented in our accompanying Report on Internal
Controls and Compliance.

I
  Cooperative agreements are used to award Federal funding when substantial involvement is anticipated
between the Federal agency and the recipient during performance of the contemplated activity.
'
3
  42 U.S.C. 9 12653.
  The cost principles for nonprofit organizations are set forth in Office of Management and Budget Circular
A-122.
        We are not able to express an opinion on the Schedule of Incurred Costs shown
below because ASC did not establish and maintain adequate financial systems and
management controls over its recording of transactions. Through alternative auditing
procedures, we could not ensure that the costs, as recorded, were allowable under the
cooperative agreement's provisions without examining virtually all individual costs
allocated to the cooperative agreement. For those reasons, no opinion on the Schedule of
Incurred Costs is expressed.


                            Schedule of Incurred Costs
         Cooperative Agreement No. OOCADCOOll for the Period June 1,2000
                           through December 31,2003

    Cost Category              Budget            Actual     1   Questioned       1        Report Reference
                        I                 I                 I                    I
                                                                             -   ~p      --   -      --     -

Salaries & Benefits         $412,157          $ 426,446         $426,446             Finding ~ 0 . 3 1
                                                                                     Finding Nos. 111, IV, VII
Travel & Conferences           53 1,400         446,846           29,378
                                                                                     -
                                                                                     5
                                                                                     , VlTT
                                                                                        ,
Contracted Services             6 1,979          117,594          65,462             Finding No. VI
Website Development             27,000           66,175           55,880             Finding Nos. 111 & V
Other Operating Costs          155,76 1          131,394           4,965             Finding No. 111
                        I                 I                 I                    I

         Total          ]   $ 1,188,297   )   $ 1,188,455   1   $ 582,131



                               Office of Inspector General Report on
                                 Internal Controls & Compliance

         In planning and performing our audit, we obtained an understanding of ASC7s
 internal control over financial reporting to determine audit procedures for the purpose of
 expressing our opinion on the financial schedule and not to provide assurance on internal
 control over financial reporting. We noted, however, certain matters involving internal
 control over financial reporting that we consider to be reportable conditions. Reportable
 conditions involve matters coming to our attention relating to significant deficiencies in
 the design or operation of internal control over financial reporting that, in our judgment,
 could adversely affect ASC's ability to record, process, summarize, and report data in its
 financial schedules that is consistent with the assertions of ASC's management.

        A material weakness is a condition in which the design or operation of one or
 more of the internal control elements does not reduce, to a relatively low level, the risk
 that material amounts on the financial schedules being audited may be misstated and not
 be detected within a timely period by employees in the normal course of performing their
 assigned functions. Our consideration of the internal control structure would not
 necessarily disclose all matters in the internal control structure that might be reportable
 conditions and, accordingly, would not necessarily disclose all reportable conditions that
 would be considered material weaknesses. We consider the reportable conditions in
 Finding Nos. I, 11, and 111 below to be material weaknesses.
        As part of obtaining reasonable assurance on whether the financial schedule is
free of material misstatements, we also performed tests of compliance with certain
provisions of laws, regulations, and the cooperative agreement. Noncompliance with
these provisions could have a direct and material effect on the determination of financial
schedule amounts. Providing an overall opinion on compliance with these provisions
was not an objective of our audit and, accordingly, we do not express such an opinion.
Results of our tests disclosed instances of noncompliance that are required to be reported
under Government Auditing Standards. These are included as Finding Nos. I, 11,111, and
IV below.

           Management Control Deficiencies, Instances of Noncompliance,
                         and OIG Recommendations

I.     Financial Management Systems

       Federal grant recipients are required to maintain financial systems and
management controls sufficient to ensure accurate and verifiable accountability over
Federal funding. For the entire period under audit, ASC did not establish and maintain
such systems. Instead, ASC management placed a low priority on complying with the
requirements that accompany the receipt of Federal grant funds. The management of
ASC stated that they did not understand applicable accountability standards and received
erroneous advice from their external accountants. As a result, financial reporting of
expenditures under the cooperative agreement could not be reconciled with the
underlying accounting records, non-grant costs were charged to the cooperative
agreement, and a significant portion of claimed expenditures could not be verified
through independent audit.

        Office of Management and Budget (OMB) Circular A-1 10, Uniform
Administrative Requirements for Grants and Agreements With Institutions of Higher
Education, Hospitals, and Other Non-Profit Organizations, sets forth standards for
financial management of nonprofit organizations, such as ASC, that receive Federal grant
funding. These recipients must maintain accurate, current, and complete records of the
financial results of each Federally-sponsored project or program. The recipient's
financial management system must identify the source and application of funds, provide
effective control over and accountability for all funds, compare outlays with budget
amounts for each award, and document procedures for determining the reasonableness,
allocability, and allowability of costs in accordance with the provisions of applicable
Federal cost principles and the terms and conditions of the award.
       The financial systems and management control processes of ASC did not meet
Federal standards required by OMB. Specifically, ASC did not:

   (1) accurately allocate costs among funding sources and respective cost objectives;
   (2) provide accurate, supported, and auditable expenditure reports for its Federally-
       sponsored program; and
   (3) maintain effective controls to ensure the reasonableness, allocability, and
       allowability of costs incurred under the cooperative agreement.

        Specific instances of these conditions include the absence of required support for
salary costs allocated to the cooperative agreement, the duplicate reporting of
expenditures to the Corporation and another funding source, and extensive budget
overruns for consulting costs. These are described in more detail later in this report.

        As a result of system and control deficiencies, a substantial portion of the costs
attributed to the Corporation's cooperative agreement are questioned in this audit report.
Moreover, we are unable to express an opinion on the Schedule of Incurred Costs.
Therefore, the Corporation lacks necessary assurances that funds provided to ASC were
used for allowable purposes, as specified under the terms and conditions of the
cooperative agreement. Given ASC's legislative advocacy activities, this lack of
segregation and accountability over Federal grant funds creates additional concerns and
risks of misuse.

        As discussed below, the cause of these systemic problems extends back to the
inception of the cooperative agreement in June 2000. Noncompliance with auditing
requirements established by OMB, as well as weak monitoring by the Corporation's
Office of Grants Management, allowed the problems to perpetuate without timely
corrective action.

Lack of Financial Systems

        When the Corporation originally awarded the cooperative agreement in 2000,
ASC's financial management and accounting was performed by another nonprofit
organization4 that served as its fiscal agent (i.e., ASC7sstaff implemented programmatic
aspects of the cooperative agreement, while fiscal management was performed by an
established organization under a separate administrative services agreement with ASC).
The Corporation assessed the financial management capabilities of this fiscal agent
during the award process and concluded that it had the capacity to manage, in accordance
with OMB standards, the Federal funds that would be made available to ASC under the
cooperative agreement.

       Subsequent to the award of the agreement but prior to drawing funding, ASC
advised the Corporation of its intention to manage and account for the grant funding
through ASC's newly established offices in Washington, D.C. The Corporation's award

' ASC's original fiscal agent was the Texas Foundation for Volunteerism & Community Service.

                                                  6
files show that the grant officer requested ASC to perform a self-assessment and
certification of its financial and accounting systems prior to approving this change in
fiscal management. ASC completed the Corporation's detailed Financial Management
Survey, acknowledging that all required systems and controls were in place, and certified
its capability to manage the funds in accordance with required standards. ASC also
provided the grant officer a copy of the policies and procedures that it would follow in
administering its personnel and programs.

        The audit showed that ASC never implemented the key financial systems and
controls that it certified to the Corporation and documented in its policies and procedures
manual. For example, ASC certified that its accounting system: (1) completely and
accurately tracked the receipt and disbursement of funds by each grant or funding source;
(2) recorded actual grant costs according to categories of the approved grant budget and
provided current and complete disclosure of grant costs; and (3) reported salary
allocations by grant or project and supported these allocations by time and activity
reports accounting for 100 percent of total hours of employment. However, none of these
assertions was correct; such systems and procedures were, in fact, never implemented.

        In response to these findings, ASC advised that the Financial Management Survey
provided to the Corporation was intended to report on the financial capabilities of the
prior fiscal agent in Texas, not the capabilities of the newly established office in
Washington. This is an implausible assertion because the second assessment was
specifically intended to determine the financial capabilities of ASC's newly established
Washington office. Management at ASC also explained that key procedures contained in
the policy and procedures manual that it provided to the Corporation's grant officer were
not impfemented because: ( I ) ASC officials were fully occupied in carrying out activities
under the grant; (2) ASC officials did not fully understand financial management
requirements for Federal grant funding; and (3) ASC management relied on guidance
from outside accountants. While we note these explanations, all Federal grant recipients
have the basic responsibility to ensure accountability over Federal funding. In the case of
ASC, where national representation and legislative advocacy are primary missions of the
organization, this lack of accountability over restricted funding sources and associated
expenditures results in an unacceptable risk of misuse of grant funds for unallowable
advocacy work.

        The Corporation's grant officer also should have done more to ensure
accountability of these Federal funds. Corporation procedures require that cognizant
grant officials assess a new recipient's financial management capabilities, systems, and
controls. The recipient organization provides a self-assessment and certification in a
standardized Financial Management Survey form. This survey is to be supplemented by
additional information, clarification, or technical assistance, as deemed necessary by the
grant officer.

       On ASC's survey form, the Corporation's grant officer noted in the grant files that
ASC still needed to establish additional policies and procedures required for recipients of
Federal funds. This indicates that the Corporation was aware that ASC had not yet
implemented the required controls for Federal funds in its Washington office. Despite
this knowledge, there is no indication that the Office of Grants Management followed up
to verify that acceptable policies and procedures to account for Federal funds were ever
implemented. A site visit would have uncovered ASC's lack of adherence to OMB
standards for internal controls. Though the Corporation's risk-based monitoring process
did not require such a site visit, this lack of oversight is particularly noteworthy given that
ASC's offices are located only two city blocks from the Corporation's office.

       In response to the draft report, the Corporation has changed its policy. All new
grantees are considered "High Risk" and will receive a follow-up site visit.


Failure to Ensure Required Audits

        The Single Audit Act Amendments of 1 9 9 6 ~and OMB Circular A-133, Audits of
States, Local Governments, and Non-Profit Organizations, establish annual audit
requirements for such organizations receiving Federal funding. Both require that
recipients with annual Federal expenditures in excess of $300,000 be audited to ensure
the accuracy of their financial reporting, the adequacy of their internal controls, and
compliance with applicable laws, regulations, and provisions of their Federal awards.

        While significant variances exist between ASC's financial reporting to the
Corporation and its internal books and records, its actual drawdowns of Federal funds and
expenditure reports to the Corporation show that ASC expenditures exceeded $300,000
for 2002 and 2003. Expenditures for calendar years 2000 and 2001 appear to fall below
the threshold for mandatory audits.

        However, no audits of ASC's accounts, financial statements, or expenditure
reporting were conducted from inception of the program in 2000 through December 3 1,
2003. Thus, ASC has not complied with the Single Audit Act Amendments of 1996 and
OMB Circular A-133 for 2002 and will likely not comply for 2003 (this latter audit is
required to be completed by September 30,2004).

        Management of ASC explained that they were unfamiliar with these Federal audit
requirements. They further contended that, while expenditures reported to the
Corporation for 2002 clearly exceeded the $300,000 threshold, their internal books and
records, upon reexamination and revision, may show a figure below that threshold.
Notwithstanding the dollar threshold, ASC recently advised the OIG that it intends to
audit its general ledger and restated financial reports for the entire grant period in order to
substantiate costs incurred under the cooperative agreement. Management of ASC also
pointed out that it was already in the process of engaging accounting and auditing
services when the OIG initiated this audit of costs incurred under the cooperative
agreement.



  3 1 U.S.C. 6 7502(a).
        Again, the Corporation's grant officer should have done more to ensure
accountability over these Federal funds. Grant officers are responsible for reviewing
funding levels and monitoring required audit coverage of grants and cooperative
agreements. A key control in this monitoring process is that each time incremental
funding is made available under the grant, the cognizant grant officer reviews funding
levels and documents in the grant file whether an audit is required. If an audit is
required, the grant officer must determine whether it has been con~pletedand whether the
recipient has satisfactorily addressed problems identified by the audit.

        The Corporation grant officer responsible for the ASC award consistently noted in
the grant files that funding levels did not meet the threshold for mandatory audit
requirements, even though funding levels clearly exceeded the $300,000 threshold in
2002 and 2003. This error demonstrates the need for Corporation management to
reemphasize the importance of this requirement to the cognizant grant officer.

       As a result of neither ASC nor the Corporation ensuring required audit coverage,
ASC's weak financial management and accounting systems were not identified and
corrected early in the program's implementation.


Recent Attempts to Correct Accounting Records

        In January 2004, the OIG notified ASC that it intended to audit costs claimed for
reimbursement under the cooperative agreement. The ASC management responded that
it was undertaking a major review and revision of its books and records extending back to
the inception of the cooperative agreement. Management of ASC further advised that the
expenditure reports submitted to the Corporation should be disregarded and requested
that the proposed audit be postponed until the accounting revisions were completed.
After meeting with ASC officials and representatives of their accounting firm, the OIG
agreed to delay this audit for one month (resulting in a seven-week lapse between
announcement of the audit and commencement of fieldwork) to allow ASC to internally
review and revise its accounts.

        The financial reports, associated general ledger, and supporting records presented
to the OIG auditors showed that the internal review was not completed with sufficient
accuracy to produce a materially correct and auditable accounting of Federal
expenditures. ASC management attributed these accounting errors and misallocations of
expenditures to poor advice from a prior accountant and inadequate understanding of the
default settings in the automated accounting system. ASC also maintained that the OIG
provided insufficient time to revise ASC accounts and prepare for an audit. Management
of ASC also noted the progress made prior to the OIG audit, such as reconciling bank
records ,training personnel in the use of an automated accounting system, preparing
accrual adjustments for income and expenses, creating journal entries supporting payroll
and benefits costs, and reviewing and coding American Express charges. The OIG notes
these actions as steps towards improvement. Yet, the fact that ASC has drawn $1.2
million of Corporation funding over a period of three-and-a-half years-without producing
supported and auditable financial reports-shows that ASC lacks the financial management
capabilities to administer Federal grant funding.

         Management of ASC proposes developing a corrective action plan in order to
overcome its management control deficiencies. However, its history of correcting such
deficiencies is not promising when one considers the organization's incorrect assertions
that its financial management systems fully met OMB standards, followed by its failure
to implement documented policies and procedures, its noncompliance with audit
requirements, and its inability to correct known deficiencies prior to this audit.

       We recommend that the Corporation's Office of Grants Management
       require America's Service Commissions to:
       1.1   strengthen its financial systems to produce materially correct and
             auditable financial reports;
       1.2 prepare a final accounting of its expenditures under the Corporation's
           cooperative agreement that reconciles to the organization's general
           ledger; and
       1.3 undergo an audit of the entity's financial statements and Federal grant
           expenditures in accordance with OMB Circular A-133.


        In response to the draft audit report, ASC provided a detailed narrative of the
evolution of its accounting systems and procedures, as well as an explanation of the
origins of various deficiencies. To address systemic deficiencies, ASC is developing
comprehensive grant accounting procedures. It is also working with a public accounting
firm to ensure that improved procedures are correctly implemented. The management of
ASC advised that their public accountants stated that grant expenditures during 2002 did
not reach the $300,000 audit threshold established in OMB Circular A-133. Thus, no
audit was required for that year and none is delinquent. Since both the general ledger and
ASC's Financial Status Reports show 2002 grant expenditures in excess of $300,000, the
basis for this conclusion is not clear. Nevertheless, ASC intends to engage the public
accountants to perform a complete audit of its financial reports and grant expenditures
extending back to the inception of the grant.

11.     Unsupported Allocations of Salaries and Benefits

         For the period June 1,2000, through December 3 1,2003, salary costs charged to
the cooperative agreement totaled $426,446. These costs, amounting to 36 percent of
total claimed grant costs, comprised a partial allocation of salaries and benefits for ASC's
three staff members and its Executive Director.

        OMB Circular A-122 sets forth standards for timekeeping documentation when
allocating salary costs to Federal grants. These requirements include periodic reports for
each individual employee whose compensation is charged in whole or in part to Federal
funding, and differentiating between each employee's grant and non-grant activity to
support an allocation of salary based on actual activities rather than on budget estimates
of effort. The reports must reflect total activity for which the employees are
compensated, must be signed by the individual employee or by a supervisor with first-
hand knowledge of the employee's activities, and must be prepared at least monthly.

        Instead of complying with this requirement, ASC charged salary costs to the
Corporation's cooperative agreement based on the budgeted salary allocations (i.e., ASC
charged the grant 100 percent of the budgeted salary allocations, with no further effort to
determine and document actual levels of effort applied to activities authorized under the
cooperative agreement). For example, the authorized budget for 2003 estimates a 90
percent level of effort for three staff members and a 10 percent level of effort for the
Executive Director on Corporation-supported activities. The recipient charged the grant
these pre-determined budget allocations of salary and benefits without regard to actual
activities.

        Using a budgetary allocation of salary costs and not maintaining required activity
and timekeeping records renders the salary expenses unauditable. This practice is
expressly prohibited under OMB standards. Attempts to retroactively recreate activity
reports or other accounting of these Federal grant funds extending back to the inception
of the award in 2000 would be an uncertain and subjective exercise. While noting that
our review of records and discussions with personnel show a substantial level of effort by
ASC staff in support of award activity, the audit is questioning all salary and benefits
charged to the grant, totaling $426,446, due to the absence of required procedures and
documentary support of the actual levels of effort.

       The origins of ASC's unsupported allocations of salaries and benefits dates back
to 2000. In 2000, ASC certified that it had a salary allocation system in place that
complied with cost principles set forth in OMB Circular A-122. ASC also provided the
Corporation's grant officer with a copy of its procedures manual, which required
employee activity reports to be prepared. However, these required procedures were never
implemented. Furthermore, the Corporation's program monitoring did not identify the
problem, which prevented timely corrective action.

        In January 2004, subsequent to the period under audit, ASC did adopt
timekeeping procedures to comply with OMB requirements. Nevertheless, more than
three years of salary and benefits costs lack documentation to support their allocation to
the Federal award.


2.    We recommend that the Corporation's Office of Grants Management:
        2.1     require America's Service Commissions to establish and maintain
                procedures and underlying documentary records supporting its
                allocation of salary and benefits costs to the Corporation's
                cooperative agreement and other cost objectives in accordance with
                OMB Circular A-122; and
       2.2     resolve the $426,446 of salary and benefits costs questioned by the
               audit.


        In its response to the draft audit report, ASC stated that, while time sheets and
activity reports were not prepared from 2000 through 2003, sufficient documentation of
work effort exists. It provided copies of affidavits by staff whose salaries were partially
allocated to the Corporation's cooperative agreement, together with individual calendars
and other documentation. While this documentation does not meet the requirements of
OMB Circular A-122, the Corporation's Office of Grants Management is responsible for
reviewing these records and resolving the questioned salary costs. According to ASC's
response, it has also introduced new timekeeping and activity reporting procedures
designed to ensure that future salary costs are supported in accordance with OMB cost
principles for nonprofit organizations.


111.   Inaccurate and Duplicative Expenditure Reporting

        Recipients of Federal grants are required under OMB Circular A-1 10 to maintain
accurate, current, and complete records of the financial results of each Federally-
sponsored project or program. The recipient's financial management systems must
identify the source and application of funds, provide effective control over and
accountability for all funds, and compare outlays with budget amounts for each award. In
conjunction with these requirements, recipients also must submit Financial Status Reports
(SF-269) to the Corporation, reporting periodic and cumulative expenditures of grant
funds. These Financial Status Reports are a primary source of information for
Corporation officials in their financial monitoring of fbnding recipients.

        ASC did not maintain an integrated and self-balancing system of accounts that
allocated expenses among funding sources and supported its reporting of expenditures.
As a result, its financial reporting to the Corporation was inaccurate, and certain costs
were reported to both the Corporation and a non-Federal funding source.

Inaccurate Expense Reporting

        As shown in the table below, the Financial Status Reports submitted by ASC to
the Corporation bore little relationship to the organization's general ledger. The
management of ASC recognized this deficiency and advised at the outset of the audit that
all Financial Status Reports should be disregarded by the auditors. As an explanation, the
Executive Director of ASC stated that he had used his own methodology in preparing the
Financial Status Reports with the intention of deliberately undercharging the
Corporation's cooperative agreement in order to avoid any potential overcharges or
unallowable costs. Nevertheless, ASC advised that it would seek reimbursement for all
expenditures under the Corporation's cooperative agreement as recorded in its general
ledger.
                      Table I: Comparison of General Ledger
                            And Financial Status Reports

                                         General             Financial Status
                                          Ledger                 Report
                   Period              Expenditures            Expenditures




                    Totals         $    1.130,399        $       97 1.974


Duplicative Financial Reporting

       The W.K. Kellogg Foundation (Kellogg) granted $242,250 to ASC in 2002 and
2003 to support ASC's training activities, including a redesign of its training curriculum
with the support of specialized consultants.

       The auditors noted a number of cost items charged to the Corporation's
cooperative agreement that were clearly identified in the supporting documentation as
expenses under the Kellogg grant. When questioned about this, ASC management
explained that the two grants had a parallel and mutually supportive objective and that
these costs were correctly allocated to the Corporation's grant.

       To verify this assertion, the auditors requested copies of the Kellogg grant
agreement, as well as ASC's performance and financial reports to Kellogg. ASC
management only provided its financial report. In this document, dated July 2003, ASC's
Executive Director certified to Kellogg that ASC had spent $95,074 of the Kellogg
funding, effectively liquidating that portion of the grant funding from Kellogg's
perspective.

       However, ASC's general ledger showed that only $22,547 of expenses were
charged to the Kellogg grant for that period, and the remaining $72,527 was largely
charged to the Corporation's cooperative agreement. This $72,527 variance between
ASC's general ledger and its financial report to Kellogg essentially means that $72,527
was liquidated against Kellogg's records and, at the same time, charged to the
Corporation's cooperative agreement and other funding sources.

        When presented with this information, ASC management advised that, upon
further review, $70,400 of the expenditures that had been reported to Kellogg had been
recorded in the general ledger as expenses to be reimbursed by the Corporation under its
cooperative agreement. These duplicative expenses are as follows:

           1 Website Costs                                        $ 40.690     1
            Consulting Fees                                            9,847
            Travel Expenses                                           14,898
            Office Supplies                                            4,965

                 Total                                            $   70.400

       ASC management intends to reverse this $70,400 from the Corporation's
cooperative agreement, explaining that this was simply a coding error. However, these
inconsistencies between ASC's initial assertions, its financial reporting to its funding
sources, and the underlying books and records, reinforces our concern about the
capability of this recipient to administer Federal grant funding.


    3.     We recommend that the Corporation's Office of Grants Management:
         - 3.1       require America's Service Commissions to reconcile expenditure
                     reports submitted to various funding sources with the entity's
                     general ledger in order to identify and correct any duplicate
                     reporting of expenditures; and
           3.2       resolve the $70,400 of travel, office supplies and website costs
                     questioned by the audit.

         In its response to the draft audit report, ASC provided documentation showing
that it reversed $70,400 of expenditures from the Corporation's cooperative agreement
subsequent to our audit fieldwork. The management of ASC also advised that this issue
arose as the result of a coding error and did not involve the duplicate recording of
expenses. We do not agree with this characterization because the reporting of these
expenses to two external funding sources - in one case, reporting them to Kellogg as an
expense liquidating Kellogg grant funding and, in another case, reporting them as
expenses to be reimbursed under the Corporation's cooperative agreement - is clearly
duplicative.
IV.     Unallowable Lobbying and Legislative Advocacy

        OMB cost principles prohibit the use of Federal grant funds for lobbying
activities. Such activities are broadly defined in OMB Circular A-122 to include:

              Any attempt to influence: (i) the introduction of Federal or State
      legislation; or (ii) the enactment or modification of any pending Federal or
      State legislation through communication with any member or employee of
      the Congress or State legislature . . ., or by preparing, distributing or using
      publicity or propaganda, or by urging members of the general public or any
      segment thereof to contribute to or participate in any mass demonstration,
      march, rally, fundraising drive, lobbying campaign or letter writing or
      telephone campaign.

      Due to ASC's role in national representation and advocacy, the audit considered
ASC's compliance with this lobbying restriction, including the risk of unintentional
noncompliance attributable to the organization's financial management weaknesses.

       The Executive Director of ASC asserts that ASC does not engage in lobbying. He
advised that neither he nor his staff has approached Congress other than in brief
introductions when the Executive Director assumed his responsibilities in 2000. The
Executive Director acknowledged that ASC supports its members' efforts to educate
lawmakers on issues facing the State commissions, and that ASC provides training to
ensure that State commission personnel are aware of the legal constraints on legislative
advocacy.

        The audit identified several instances of lobbying and legislative advocacy that
are not allowable under OMB Circular A-122. These include costs for travel,
publications, salary, and website material, as discussed below.

Travel Expenses

          On September 3,2003, the Chairman of ASC's Board of Directors flew from
 Kalamazoo, Michigan, to Washington, D.C., returning home to Michigan the following
 day. On September 4th, this individual served as a moderator in a public rally in
 Washington sponsored by the Save AmeriCorps Coalition. This event, called the Voices
for AmeriCorps: 100 Hours of Testimony, intended to influence the introduction,
 enactment, or modification of pending ~ e ~ i s l a t i o ASC
                                                           n . ~ charged the $372 round-trip
 airfare to the Corporation's cooperative agreement.

 As stated by a moderator at the outset, this public rally was held in Washington, D.C., with "three major
purposes in coming here over the next 100 hours. The first is the most urgent and that is for this Congress
and this White House to get their act together and pass a bill which helps to provide $100 million for
AmeriCorps for this current fiscal year. Nothing is more urgent. The second goal is more intermediate in
nature, and that is for the Congress and the President to come together and agree upon a request the
President has twice made of the Congress and that is to expand the number of AmeriCorps positions to
75,000 a year and make this a long-term foundation for the young people of this country. The third, and it is
no less important, is the long-term objective. And that is what the organizers of this gathering has started to
do. To create a movement on behalf of national service."
        When this questionable use of Federal funds was brought to the attention of ASC
management, ASC claimed that the Chairman's one-day trip to Washington mostly
involved the development of training for State commissions and would therefore be an
allowable cost. The management also stated that the Chairman's participation in this
event lasted no more than 90 minutes, suggesting that a prorating of the travel expenses
to the cooperative agreement might be appropriate. However, ASC did acknowledge
that, because this type of activity could have the appearance of lobbying, it would
develop procedures to have such costs charged to other funding sources in the future.

Publication Expenses

        In July 2003, ASC charged the Corporation's cooperative agreement $809 for
publishing 300 copies of a 38-page Congressional directory, including names of members
of Congress, key committee personnel, office addresses, and telephone numbers. The
directory was distributed to State commission personnel attending ASC conferences.
Distribution of this material has the implied purpose of facilitating or encouraging
individuals to contact legislators, and we conclude that this cost is unallowable under the
lobbying provisions of OMB Circular A-1 22.

        In response to this finding, ASC contended that printing and distributing a
Congressional directory is not an implied lobbying activity because it does not involve
specific legislation. They asserted that the Congressional directory was distributed to
State commission personnel during ASC's training activities rather than in conjunction
with any specific legislation.

        We disagree with ASC's position. As noted, OMB Circular A-122 defines
lobbying broadly to include any attempt to influence legislation by urging a segment of
the public to participate in any lobbying, letter-writing, or telephone campaign.
Publication of Congressional directories, in our opinion, is included in the broad
definition. As such, using Federal funds to pay for publishing this material is
unallowable.

        Also in July 2003, ASC charged the Corporation's cooperative agreement $653
for publishing 170 copies of a 40-page document entitled Educating Lawmakers. This
document provided guidance on corresponding and meeting with members of Congress
and staff to communicate views on pending legislation. It also provided guidance on
establishing grass-roots "education" initiatives. In conjunction with the distribution of
this manual, ASC provided training to State commissioners in a one-hour session entitled
Coming to a Legislature Near You: State and Federal Advocacy Essentials. This
training was provided as part of a larger conference covering a range of subjects.

       The audit questions these costs as prohibited lobbying expenses. Management of
ASC refuted this finding, pointing out that not all contacts with Congress constitute
lobbying. According to ASC, it instructs State commission personnel in educating
lawmakers, without encouraging them to lobby with regard to general or specific
legislation. Officials of ASC maintained that their training was intended to make
commission personnel sensitive to prohibited activities in order for them to understand
and avoid violations of anti-lobbying provisions.

        Notwithstanding ASC's comments, the publication itself, Educating Lawmakers,
was a broader reference guide that focused on effectively influencing lawmakers, and we
are therefore questioning that cost as unallowable under the lobbying prohibitions set
forth in OMB Circular A-122.

Salary Expense

         As noted earlier, ASC failed to prepare required employee activity reports for the
accurate allocation of salary costs to the cooperative agreement. Without such records,
the OIG cannot determine whether ASC personnel engaged in lobbing activities, and then
allocated those salary costs to the cooperative agreement. Stated another way, any salary
costs allocable to lobbying activities could not be identified based on a review of payroll
and activity reports because required systems were never established. In the absence of
documented employee activity reports, the OIG interviewed ASC staff whose salary costs
were charged to the grant. The ASC staff only brought a single instance of lobbying
activity to our attention. However, interviewing employees provides only limited
assurance that all such matters would be brought to our attention.

       The single instance of lobbying activity brought to our attention by ASC staff
concerned one employee who spent a considerable portion of five to seven workdays
supporting the September 2003 Voicesfor AmeriCorps event. The ASC employee's
work on'the event significantly exceeded the 10 percent of the individual's workday not
charged to the Corporation's cooperative agreement. This means that a portion of her
Federally-funded salary costs directly supported the event. The employee's salary and
benefits total approximately $26 per hour. For illustrative purposes, if this employee
spent 60 percent of her time working on the event for five days at $26 per hour, the
questionable salary costs would be approximately $520. Because all salary costs are
already questioned in Recommendation No. 2, we are not questioning this amount below.

        In response, ASC stated that it does not consider this support to be lobbying
within the definition of the OMB cost principles. The officials elaborated that this
employee arranged the scheduling, recording, and video conferencing capability for
participants commenting on the impact of cuts to the AmeriCorps program. ASC stated
that the video was never sent to Congress. Rather than an effort to influence Congress,
ASC explained that this was an opportunity for State commissions to vent their
frustration with regard to program funding cuts.

       Given that the Voicesfor AmeriCorps event was clearly a public rally intended to
influence pending legislation, namely the legislation that appropriates funding to the
Corporation, this attempt to segregate participation and support for the event into
allowable and unallowable activity is not persuasive.
       Attempting to further justify the employee's work on the Voicesfor ArneriCorps
event, ASC stated that it would be inappropriate to view the 90 percent allocation of the
employee's compensation to the cooperative agreement as a daily allocation. Instead,
ASC officials suggested that the salary allocation be made on an annual basis. For
example, if an employee devoted 100 percent of a given period to the cooperative
agreement, there would then be a period when a less than 90 percent level of effort would
be acceptable.

        This latter comment demonstrates the purpose behind OMB requirements for
contemporaneous records allocating each day's work between grant and non-grant cost
objectives. If one were to allocate compensation costs on an annual basis, no daily
records would exist, and there would essentially be no meaningful accountability over
salary allocations of specific activities on specific days.

Other Lobbying Costs

        Management of ASC maintains a website providing a range of information and
resources to viewers. All costs associated with website development were charged to the
Corporation's cooperative agreement. The website includes a model letter to Congress
regarding increasing funding for ArneriCorps, together with a request to "please
encourage everyone you know to e-mail this to their Senators." While this constitutes
lobbying under OMB cost principles, actual costs attributed to this portion of the website
would likely be immaterial. However, a broader discussion of website costs is contained
in the following finding.

Conclusion on Lobbying Costs

        The relatively low dollar amount of these questioned lobbying costs, together with
ASC's responses when queried on the individual costs, indicates the recipient's
insensitivity to an issue of great concern to the Corporation. We believe that ASC
certainly could have funded these expenses through non-Federal sources. However, the
fact that these costs were not carefully segregated from Federal funds heightens our
concerns over this recipient's ability to manage Federal grant funds.


    4.     We recommend that the Corporation's Office of Grants Management:
           4.1     resolve the $1,834 of questioned lobbying costs; and
           4.2     require America's Service Commissions to develop procedures for
                   identifying and segregating lobbying costs, as defined in OMB
                   Circular A-122, to ensure that such costs are not charged to
                   Federal grant funds.


        In response to the draft audit report, ASC claims that it did not engage in lobbying
activities as defined in OMB Circular A-122. However, ASC has agreed to remove the
above expenses from the Corporation's grant costs and implement procedures to clearly
prevent any potential charging of unallowable lobbying costs. The full text of ASC's
comments is included in pages 18 through 20 of Appendix B. In its comments, ASC
claims that the intended purpose of these costs was not to influence legislation. We have
reviewed ASC's explanation and find it unpersuasive. Therefore, the OIG continues to
characterize these costs as unallowable lobbying expenses as defined in OMB Circular A-
122.

V.     Unallocable Website Development Costs

        The authorized budget for the Corporation's cooperative agreement with ASC
included $27,000 to assist the recipient in developing its website. However, ASC
allocated substantially more than this budgeted amount to the cooperative agreement,
charging all website development costs - totaling $77,740 - to the Corporation's
cooperative agreement, as well as $5,140 of website maintenance costs.

        Examination of this overrun raised questions about the allocability of these costs
to the cooperative agreement. The website contains a wide range of information and
resources for State commissions. Some content directly relates to peer-to-peer training
activities. Other content, such as general information on volunteer issues and legislative
updates, assists State commissions in carrying out their responsibilities, but is not
necessary to accomplish the purposes of the cooperative agreement. Content such as the
model letter to Congress, mentioned in the previous section of this report, is clearly
unallocable member-oriented material, and associated costs must be segregated from the
cooperative agreement.

        Management at ASC initially asserted that these costs were correctly charged to
the Corporation's cooperative agreement. The Executive Director explained that the
increase in website costs was offset by decreases in other budgeted communications
costs, such as postage and printing. He recalled discussing this shift in budget line items
with the Corporation's program officer. The program officer did not specifically recall
this discussion and conveyed that the $27,000 budgeted for website development was
likely the intended amount after any such discussions.

        When auditors later examined ASC's financial report to the Kellogg Foundation,
the OIG found that, in fact, $40,690 of website costs had already been funded by the
Kellogg Foundation. These same costs were allocated to the Corporation's cooperative
agreement in ASC's general ledger. The inconsistencies between the financial report to
Kellogg, cost allocation in the general ledger, and assertions by ASC management,
reinforce our concerns about the financial management capabilities of ASC.

       Based on the above, we are questioning the $55,880 of website costs charged to
the Corporation's cooperative agreement in excess of the authorized budget. Noting that
$40,690 of this excess is already questioned under Recommendation No. 3, we are
questioning the remaining amount below.
      5.      We recommend that the Corporation's Office of Grants Management
              resolve the $15,190 of website development costs questioned by the audit.

       In its response to the draft audit report, ASC requested that the Corporation's
Office of Grants management consider realigning budget items to offset the additional
$15,190 of questioned website development costs, with the understanding that advocacy
and lobbying costs are to be excluded from the Corporation's cooperative agreement.

VI.        Unallocable Consulting Fees

       The authorized budget for the Corporation's cooperative agreement with ASC
includes a cumulative total of $32,200 for consultant fees. According to the budget, these
services were to involve research consultancies that support the purpose of the
cooperative agreement.

        Actual consultant expenses charged to the cooperative agreement totaled $84,841,
which is $52,641 more than was budgeted. These included communications consultants'
fees totaling $46,077, a specialized survey costing $19,385, and a range of contracted
personal services totaling $19,379.

       Examination of this substantial budget overrun showed that ASC had weak
procurement practices and questionable allocation methods. ASC engaged two
communications consultants between 2001 and 2003. Neither was engaged under written
contract and, consequently, there was no clearly established scope of work or defined
deliverables supporting the allocation of costs to the cooperative agreement.

        From late 2001 through 2002, ASC engaged a communications consultant
responsible for writing ASC's e-bulletin and assisting with website development. Both
of these responsibilities included a substantial amount of legislative reporting. This
consulting arrangement did not include a written contract or documented scope of work.
Fees for these services totaled $3 1,052, of which ASC charged $28,977 to the
Corporation's cooperative agreement. The audit is questioning the $28,977 of this
individual's consulting fees charged to the Corporation's cooperative agreement due to
the absence of: (I) a written contract, including a reasonably detailed scope of work; (2) a
self-evident relationship between the individual's services and the scope of the grant
(activities appear to be in the nature of general member services and outside the purposes
of the cooperative agreement); and (3) a significant overspending of consultant costs in
the authorized budget. Noting that $9,847 of this amount is already questioned as a
duplicated expense in Recommendation No. 3, we are questioning the remaining portion
below.

       During 2003, ASC engaged another individual to serve as a communications
consultant and charged 50 percent of her compensation to the Corporation's cooperative
agreement. (The remaining 50 percent was charged to the grant from Kellogg
Foundation.) This individual received $17,100 of funding from the cooperative
agreement through December 3 1,2003.
       Again, there was no written agreement between ASC and the individual;
consequently, there was no formal scope of work. An undated document prepared by the
consultant describes "goals, deliverables, responsibilities and vision for the future." The
document focuses on information management, website updates and evaluations,
preparation of weekly e-bulletins, and conference management. Specific
accomplishments cited in the document include the planning, organization, and execution
of ASC's contribution to the Voicesfor AmeriCorps event.

        The audit is questioning the $17,100 of this individual's consulting fees charged
to the Corporation's cooperative agreement due to the absence of: (1) a written contract,
including a reasonably detailed scope of work; (2) a self-evident relationship between the
individual's services and the scope of the cooperative agreement (activities appear to be
in the nature of general member services); and (3) a significant overspending of
consultant costs in the authorized budget,.

        Consulting fees of $19,385 were charged to the Corporation's cooperative
agreement for services provided by the Feldman Group, an independent polling firm.
This consulting firm designed a questionnaire, interviewed the chairperson and executive
director of each State commission, and then reported the results and findings to ASC's
Board of Directors.

        Such a report may be useful to ASC in understanding the priorities and concerns
of the State commissions. These included the State commissions' strong expectations of
ASC's Washington-based advocacy and lobbying role. ASC also advised that the study
was undertaken with the knowledge of the Corporation and the results were shared with
the Corporation.

        Despite the potential utility of this report, the audit is questioning the allocability
of the total of $19,385 of consulting fees because of the: (1) ambiguous relationship
between this study and the purpose and objectives of the Corporation's cooperative
agreement; and (2) significant overspending of consulting costs in the authorized budget.
The OIG notes that such costs would be better characterized as general membership
activity costs.


    6.      We recommend that the Corporation's Office of Grants Management
            resolve the $55,615 of consulting costs questioned by the audit.

        In its response to the draft audit report, ASC advised that it believes sufficient
documentation supports the allowability of $46,077 in communications consultant fees
charged to the cooperative agreement. ASC provided related documentation and requests
that the Corporation's Office of Grants Management allow these costs. The management
of ASC also stated that the majority of the $19,385 cost of survey work performed by the
Feldman Group was a valid grant expense. However, ASC recognizes the sensitivity of
portions of the survey report and therefore will not request that the Corporation reinstate
these questioned costs. To avoid future problems with consulting costs, ASC has
developed a policy that requires consulting agreements to be in writing and have detailed
scopes of work.

VII.   Personal and Unallocable Bank Card Expenditures

       Further illustrating ASC's need for improved financial systems and management
controls are the personal and other unallocable expenses charged to the Corporation's
cooperative agreement. Costs identified during the audit are itemized in Table 2 and
generally result from the Executive Director's use of ASC's American Express card.

        Ten of these 18 items involve airfare costs between Ohio, where ASC's Executive
Director maintains a family residence, and Washington, D.C. The management of ASC
claims that these are not personal expenses because they involve official travel to
Washington on ASC business but ASC management conceded that these costs should not
be allocated to the Corporation's cooperative agreement.

        While the 01G notes ASC's intent to reverse these charges from the cooperative
agreement, we consider these costs to be personal commuting expenses. In examining
travel costs, basic criteria that must be established are the traveler's place of residence
and official workplace. Given that ASC's offices are located in Washington, D.C., and
that the Executive Director maintains a home in Ohio, the cost of travel between Ohio
and Washington is generally considered a personal commuting cost.

        Six of the 18 items in Table 2 are related to a trip to a Disney resort in Orlando,
Florida. 'These include room charges, admission tickets, and airfare for members of the
Executive Director's family. The Executive Director of ASC stated that this was a
business meeting, and any personal costs were to have been reimbursed through a
retroactive salary increase that he did not receive. He also asserted that, due to an error
by ASC's accountant, this reimbursement transaction was not completed and was not
recorded in ASC's accounting records.

        The remaining two items related to small grocery and drycleaning charges in
Columbus, Ohio. The Executive Director stated that these occurred because he conhsed
his personal American Express card with the newly issued ASC American Express card.

         These problems arose because ASC did not establish procedures to effectively
control travel expenses and other purchases on ASC's bank card. For example, travel
expense forms are not used to document the purpose and costs of travel by ASC
management. Furthermore, ASC sometimes allocated monthly American Express
payments to the cooperative agreement and other cost centers based on fixed percentages
of total monthly charges rather than by review and allocation of individual expenditures.
Also, Executive Director expenditures lack oversight. The Executive Director incurs
charges and also approves payments without adequate supporting documentation or any
review and approval by other staff. As a result, the purpose and nature of many bank
card expenditures are not documented. Relyng on recollections of the individual
     travelers to establish the purpose of travel and its allocability to the Corporation's
     cooperative agreement is not acceptable.


                                      Table 2: Personal Expenses Charged
                                  to the Corporation's Cooperative Agreement

1             Expense               Amount                             ASC Explanation


Airfare, Columbus, Ohio, to
                                                Adjustment to prepaid ticket to return to Washington. (OIG Note:
Washington, DC, for                 $23'75
                                                We consider this to be a personal commuting cost.)
Executive Director
                                                Personal purchase that was reimbursed through a retroactive salarj
America West Specialty                          increase not received; reimbursement erroneously not recorded in
Retail Store                        $225'00     books. (OIG Note: Documents provided to support
                                                reimbursement are not substantive.)


                                                Personal purchase that was reimbursed through a retroactive salaq
Drycleaning charges in                          increase not received; reimbursement erroneously not recorded in
                                     $4 l"'
Columbus, Ohio                                  books. (OIG Note: Documents provided to support
                                                reimbursement are not substantive.)

                                                Personal purchase that was reimbursed through a retroactive salay
    Grocery charges in                          increase not received; reimbursement erroneously not recorded in
    Columbus, Ohio                   $24'05     books. (OIG Note: Documents provided to support
                                                reimbursement are not substantive.)

I January 2002
                                                Hotel room for meeting of ASC's Board of Directors. (OIG Note
    Room at Disney World
                                    $338.64     Documentary evidence of meeting, participants, and business
    Coronado Hotel 1125-27102
                                                purpose not provided.)

                                                Novelty item for meeting of ASC's Board of Directors. (OIG
    Disney Days of Christmas
                                     $10.55     Note: Documentary evidence of meeting, participants, and
    1/27/02
                                                business purpose not provided.)

                                                Fare adjustment for personally purchased ticket; reimbursed by
    Airfare, Columbus, Ohio, to                 retroactive salary increase not received; reimbursement
    Orlando, FL, for Executive       $150.00    erroneously not recorded in books. (OIG Note: ASC has been
    Director's Family                           unwilling or unable to provide documentary evidence of
                                                reimbursement.)

                                                Shipping material from meeting of ASC's Board of Directors.
    Disney World Business Center     $13 1S O   (OIG Note: Supporting records show this to be the purchase of
                                                Disney tickets rather than shipment of meeting material.)
1                                                Balance on Executive Director's hotel room invoice for phone
                                                 calls and meals associated with meeting of ASC's Board of
Disney World Coronado Hotel
charges 1124-27102                   $109'29     Directors. (OIG Note: Documentary evidence of meeting,
                                                 participants, and business purpose not provided.)

                                                 Fare adjustment for personally purchased ticket; reimbursed by
    Airfare, Columbus, Ohio, to
                                                 retroactive salary not received; reimbursement erroneously not
    Orlando, FL, for Executive       $150'00
                                                 recorded in books. (OIG Note: ASC has been unwilling or unabh
    Director's Family
                                                 to provide documentary evidence of reimbursement.)



    Airfare, Columbus, Ohio to
                                                 Adjustment to prepaid ticket to return to Washington to prepare a
    Washington, DC
                                     $13.00      response to reauthorization language unveiled by Congress. (OIG
    (Supplemental Charge) for
                                                 Note: We consider this to be a personal commuting cost.)
    Executive Director

                                                 Adjustment to prepaid ticket to return to Washington to address
    Airfare for Executive Director
                                     $100.00     questions raised by Kellogg Foundation. (OIG Note: We
    (routing not shown)
                                                 consider this to be a personal commuting cost.)

    Airfare Washington, DC, to
                                                 Adjustment to prepaid ticket to attend Corporation meeting in
    Columbus, Ohio for Executive
                                     $42.00      reference to reauthorization legislation. (OIG Note: We consider
    Director (Supplemental
                                                 this to be a personal commuting cost.)
    Charge)
    ( June 2002
    Airfare, Columbus, Ohio, to
                                                 First segment of trip to national training conference. (OIG Note:
    Washington, DC, for              $loO'OO
                                                 We consider this to be a personal commuting cost.)
    Executive Director

     September 2002

    Airfare, Columbus, Ohio, to                  Adjustment to prepaid ticket to attend a Washington training
    Washington, DC, for              $158.00     event. (OIG Note: We consider this to be a personal commuting
    Executive Director                           cost.)

     October 2002
    Airfare, Columbus, Ohio, to
                                                 First segment of trip to Maine training event. (OIG Note: We
    Washington, DC, for              S1OO'OO
                                                 consider this to be a personal commuting cost.)
    (~xecutiveDirector
     February 2003
    Airfare from unknown                         Travel to emergency meeting on AmeriCorps funding issues.
    location to Washington, DC,      $124.40     (OIG Note: Absent any information about the point of origin, we
    for Executive Director                       consider this to potentially be a personal commuting cost.)
     July 2003
    Airfare, Columbus, Ohio, to
                                                 Returned from personal leave to attend Washington training even
    Washington, DC, for                 36'00
                                                 (OIG Note: We consider this to be a personal commuting cost.)
    Executive Director
         Total                       $1,978.06
   7.      We recommend that the Corporation's Office of Grants Management:
           7.1     require America's Service Commissions to establish controls,
                   including segregation of duties, adequate documentation, and
                   consideration of allowability, to support bank card purchases
                   allocated to the Corporation's cooperative agreement; and
           7.2     resolve the $1,978 of personal and unallocable bank-card
                   expenditures questioned by the audit.

        In its response to the draft audit report, ASC advised that the above costs would
not be charged to the Corporation's cooperative agreement. However, it stated that most
of these costs involved ASC business activities rather than personal expenses, and any
items that ASC has determined to be personal in nature have been billed to the individual
for reimbursement to ASC.


VIII. Travel Costs

       Travel expenses comprise a substantial portion of ASC's costs under the
Corporation's cooperative agreement. This travel is associated with various training,
technical assistance, and other activities. For the period June 1,2000, through December
31, 2003, travel costs totaled $446,846, amounting to 38 percent of costs claimed under
the grant.

        To be allowable under a Federal award, travel costs must be: (1) supported by
sufficient documentation; (2) directly attributable to specific work under the grant; (3)
reasonable in nature; and (4) consistent with the normal procedures established by the
organization receiving the Federal funding.

        For the most part, these travel costs directly related to the cooperative
agreement's purpose of providing training and assistance to strengthen State
commissions. In addition, ASC officials ensured that many training participants traveled
at discounted airfares in order to contain costs.

        However, procedures for managing and supporting travel costs need
strengthening. Specifically, ASC did not consistently retain sufficient documentation to
support travel expenses and, in several instances during the audit, ASC officials needed
to gather records from hotels or individual travelers to substantiate costs charged to the
cooperative agreement. Moreover, ASC did not consistently implement procedures for
travel expense reporting and paid several items both as direct charges to ASC's bank card
and as reimbursements to travelers when the costs were included in the individuals'
expense reports. The audit also identified travel costs attributable to activities unrelated
to the cooperative agreement. These items total $12,130 and are listed below in Table 3.
            Table 3: Questioned Travel Expenses Charged
             to the Corporation's Cooperative Agreement

Date   Check No.         Payee           Amount   Comments


                                                  Travel purpose not allocable to
                      F. Waldstein
                                                  cooperative agreement.

                                                  Travel purpose not allocable to
                      F. Waldstein
                                                  cooperative agreement.

                                                  Travel purpose not allocable to
                      F. Waldstein
                                                  cooperative agreement.

                                                  Travel purpose not allocable to
                      F. Waldstein
                                                  cooperative agreement.

                                                  Travel purpose not allocable to
       Check 1083     F. Waldstein
                                                  cooperative agreement.


                                                  Travel purpose not allocable to
                      F. Waldstein
                                                  cooperative agreement.
                                                                       -     -      -




                                                  Duplicate reimbursement of hotel
                                                  costs (paid directly to traveler and
       Check 1126     F. Waldstein
                                                  paid directly through ASC bank
                                                  card).

                                                  Duplicate reimbursement of hotel
                                                  costs (paid directly to traveler and
       Check 1176   M. Meeks Kelly
                                                  paid directly through ASC bank
                                                  card).

                    Hilton Hotel, Salt            Premium hotel room, $595 per
                     Lake City, UT                night.

                                                  Reimbursed duplicate payment not
         Deposit        P. Ballard                credited back to cooperative
                                                  agreement.

                                                  Reimbursed duplicate payment not
         Deposit         K. Joy                   credited back to cooperative
                                                  agreement.

                                                  Voided check charged to
       Check 1345      T. Hasdorff
                                                  cooperative agreement.

                                                  Travel purpose not allocable to
       Check 1348     F. Waldstein
                                                  cooperative agreement.
                    I                1               1                   /   Duplicate reimbursement of hotel
                                                                             costs (paid directly to traveler and
                                                                                                                    I
                        Check 1383       K. Kaskey             387'00
                                                                             paid directly through ASC bank
                                                                             card).


1     -        -
                Total
                -         -     -
                                                     1   $   12.129.76   1


          8.     We recommend that the Corporation's Office of Grants Management:
                 8.1        require America's Service Commissions to strengthen its controls,
                            including supporting documentation and allowability review, over
                            travel costs funded under the cooperative agreement; and
                  8.2       resolve the $12,130 of travel expenses questioned by the audit.

           The management of ASC concurred that $7,114.68 of the above travel costs
    should not be charged to the Corporation's cooperative agreement, noting that these were
    generally ASC business expenses not directly allocable to the grant. Of the remaining
    items, ASC provided explanations intended to establish their allocability. The OIG will
    work with the Corporation's Office of Grants Management to ensure that all available
    information is considered in determining whether to disallow or reinstate these remaining
    costs.

    IX.        Other Matters

            Administrative costs are not systematically and consistently allocated to the
    Corporation's cooperative agreement. Some are charged entirely to the cooperative
    agreement, while others are not allocated at all to the agreement. Since these costs,
    which include office supplies, telephone conferencing, and payroll taxes, typically
    support both the cooperative agreement and other ASC activities, ASC should adopt a
    rational and consistently applied allocation methodology. During the audit, ASC initiated
    an exercise to examine and allocate these shared administrative costs. Prior to the
    issuance of this final report, ASC advised that the reallocated costs will increase total
    expenses charged to the Corporation's cooperative agreement by $55,137. These revised
    figures should be examined as part of the pending audit under OMB Circular A-133 and
    then should be considered by the Corporation's Office of Grants Management.
                            Appendix A


Response of the Corporation for National and Community Service
                                            g~fyork~~ &
                                            COMMUNITY
                                            SERVICE-
                                                                                             u     AUG '3 2 ~ ~ 4
                                                                                        i
To :            J. Russell George, Inspector General                                    i
                                                                                        I
                                                                                                 L-                               _i
                                                         t C   i   'I1                  - ------
                                                                                        1             ir
                                                                                                           - --     -
                                                                                                                  I__I_I__




From:            &rgaret ~ d s e i k i & , &&or'   of   rants Management
                                                         \
Date:           August 27,2004

Subject:         Response to OIG Draft Audit Report 04-23, Audit of Costs Incurred under the
                 Corporation's Training and Technical Assistance Cooperative Agreement with America's
                 Service Commissions


We have reviewed the draft audit of the Corporation's cooperative agreement with America's Service
Commissions (ASC). Due to the limited timeframe for response, we have not completed a review of the
report nor followed up with the organization to resolve the questioned costs and recommendations. We
will respond to all findings and recommendations during the audit resolution process. However, based on
preliminary information provided to the Corporation, we have suspended ASC's account at the
Department of Health and Human Services to safeguard remaining federal funds until we resolve the
audit.

In addition to the questioned costs, the report identifies areas in which the Corporation should strengthen
its oversight and monitoring of grantees. We have taken several steps to address the issue. We are
requiring grants staff to document that they have reviewed specific financial documents to determine if
grantees mug conduct an A-133 audit. We also revised our criteria for assessing and assigning risk so
organizations new to federal funding will be considered high risk, regardless of other factors that may
mitigate risk. Organizations categorized as high risk receive follow-up site visits after initial site visits to
ensure they have implemented all required policies and procedures. In addition, we are contracting with
an outside firm to assist us in resolving the audit findings.

Four other initiatives started before the audit will also lead to improved oversight of grants and
cooperative agreements. First, the Corporation is developing new policies and procedures to strengthen
management of cooperative agreements. Future cooperative agreement budget plans will be linked to
specific outputs and outcomes, and providers will submit detailed expense reports at least quarterly.
Amendments to cooperative agreements will undergo a higher level of scrutiny. Second, the Corporation
is recompeting training and technical assistance provider agreements later this year, with accountability as
a key selection factor. Third, the Corporation is now requiring its grants officers to be certified through a
comprehensive training program. Staff completed the second training course, on oversight and
monitoring of grants and cooperative agreements, on August 10, 2004. Finally, the Corporation is
creating a new position, Director of Grants Oversight and Monitoring, to establish consistent policies and
procedures across its programs.

In summary, the Corporation will continue to be diligent in addressing audit findings and
recommendations through the audit resolution process.




                                 1201 New York Avenue, NW * Washington, DC 20525
                                       202-606-5000 * www.nationalservice.org
                                                                                                                        Freedom Corns
                                Senior Corps   * AmeriCorps *            Learn and Serve America                        The Prestdcnt's Call to Scmicc
              Appendix B


Response of America's Service Commissions
America's
Service
Commissions
 American Association
 of Stare Service Cornrni\*ion*




September 2, 2004



Honorable J. Russell George
Inspector General
Corporation for National and Community Service
1201 New York Avenue NW, Suite 830
Washington, D.C. 20525

Dear Mr. George:

       Enclosed please find the response of the American Association of State Service
Commissions (ASC) to your July 30, 2004 draft report entitled, "Audit of Costs Incurred
under the Corporation's Training and Technical Assistance Cooperative Agreement with
America's Service Commissions (Agreement No. 00CADC0011)" (the "Draft Report").

        As requested, ASC is submitting this document within the response period
(extended to September 3, 2004 by Carol Bates) to address all matters related to your
draft report (04-23). Please note that this response differs substantially from our
organization's initial response to Mr. Craig Nordby of your ofice dated June 18, 2004
This change reflects the ASC Board of Directors belief that our organization's initial
responses did not provide the correct articulation of all the facts related to the issues
raised in the audit. Upon review of the final documents, related supporting materials
provided in our initial response, and additional ASC records reviewed after that initial
response, the Board of Directors of ASC is modifying several components of our
response.

        Since our initial response to you, circumstances have changed dramatically which
has precipitated a more direct involvement of the Board of Directors in the OEce of the
Inspector General's audit. First, Mr. Sundermeyer resigned (effective July 30,2004) as
the Executive Director of ASC. Second, the CNCS indicated that it would not allow
ASC to draw down additional hnds authorized under our cooperative agreement
effective July 30, 2004. In a letter from Michelle Guillerman, ASC was notified that
these hnds were suspended until the resolution of the OIG audit. Consequently, the
Executive Committee of the ASC Board of Directors directly engaged in developing this
document, dong with counsel. The signature of the ASC Chair represents the approval
of the Committee to this response to the Drafl Report.
Honorable J. Russell George
Page Two
September 2, 2004

        The ASC Board of Directors hopes that this response thoroughly addresses the
serious questions and concerns raised in the OIG's initial draft report and that the
resulting outstanding issues can be resolve quickly, thoroughly and amicably.

        Should you have any questions regarding this response, please feel free to contact
our accountant representative, Paul H. Calabrese, Senior Manager, Rubino & McGeehin
or our legal counsel Steven J. Kmieciak at Seyfarth Shaw, LLP.

Sincerely,



Kyle Caldwell
ASC Chairman
       The American Association of State Service Commissions (ASC) is responding to the
Inspector General's July 30, 2004 draft report number 04-23 regarding the Corporation for
National and Community Service's (Corporation or CNCS) Training and Technical
Assistance Cooperative Agreement number 00CADC0011 (the "Draft Report").

        This response addresses all matters referenced by the Office of Inspector General
(OIG) and provides rationale and evidence for expenditures and activities questioned in the
Draft Report. In addition, this response explains the realignment of costs and expenditures
related to the Cooperative Agreement for the performance period. It is our understanding
that the OIG questioned $582'13 1 of $1,188,000 that ASC charged as costs to the Grant from
the corporation.' ASC is providing a summary of its position in the chart on the page 5 that
detailed the OIG's questioned costs, and ASC7srelated response. An expanded version of
this chart showing budgeted line items by Grant period is shown in Attachment 1.

       The Schedule of Budget, Incurred and Questioned Cost referred to as the
"Schedule", presents the total of all budgets that were definitized from work plans by
expense line item. The middle two columns show the results from the Draft Report, both the
"Actual Expenses per Adjusted General Ledger (GIL), and Questioned Cost. The three
columns on the right display the actual expense from the Profit & Loss (P&L) report for the
Grant from Quick Books (QB) accounting software and questioned costs that are resolved by
the Draft Report's reference, i.e. the resolved items refers to one of the (8) areas involving
recommendations and questioned cost.

       Throughout this response, we refer to the "P&L by Class" report which is generated
by QB accounting. The P&L terminology is used because this commercial accounting
system had preset names for its standard reports. Essentially, the P&L is equivalent to a
Revenue and Expense report with the remaining balance either being positive (revenues in
excess of expenses) and called net assets or negative deficit (expenses exceed revenues). The
"CLASS" designator facilitates the segregation of cost by the Grant, non-federal activities
and indirect or General and Administrative (G&A) functions. Generally ASC uses three
CLASSES, i.e. the Grant, Kellogg private foundation Grant, and indirect activities charged to
G&A.

        With respect to the results from the OIG review, the "Actual Expenses per Adjusted
GIL" is derived from Attachment 1-D, "Analytical Review: Budget v. Actual Expenses by
Year". The OIG7squestioned cost from the Draft Report is shown next to each of the
appropriate line items. The total actual expenses per the "adjusted GIL" are $1,188,455. The
derivation of this "starting" figure is shown in detail in Attachment 1-B. When the OIG
started its field work on March 1,2004, our accounting firm (Rubino & McGeehin) reviewed
the Grant ending December 3 1" for FYs 2000,2001,2002, and 2003. The initial grand total
for the Grant for all periods was $1,301,460.41. From the notes [a] and [b] from
Attachment 1-B, the aforementioned figure is further reduced by $809.00 to equal
$1,300,65 1 which approximates $1,300,625 used by the OIG in Attachment 1-D, the most
bottom figure in the schedule referred to as "Total Expenditures per GIL".

I
         ASC first received a grant from CNCS in 2000, and has received additional grant funds during 2000,
200 1,2002, and 2003 totaling $1,3 14,902 to date. For purposes of this response, those funds will be referred to
collectively as the Grant. Grant performance is from June I , 2000 through June 30, 2004.
                                                        1
        The reason this analysis is important is because we are reconciling from our initial
P&L figures for the Grant before the OIG started its field work, and will account for every
adjustment to arrive at the cumulative claimed costs of $1,140,266 (lStcolumn under
"Results per ASC" from the Schedule) for the Grant as of December 31,2003. It is our
contention that there will be a better understanding of ASC's final claimed amounts if we can
document and itemize every credit or reduction to the Grant. When we refer to "resolved
questioned cost" we are stipulating that ASC believes such cost should be disallowed by
crediting or reducing the cost to the Grant. Since the OIG requested that ASC designate
which of its questioned costs we can concur as unallowable to the Grant, we have presented
the resolved cost by budget line item in the Schedule and referenced the OIG's
recommendation reference number from its Draft Report.

        Starting from the OIG's total expenses on the Grant as of March 1,2004 from
Attachments 1-B and 1-D and shown in the Schedule. we provide the following
reconciliation to our cumulative claimed cost.

Total Expenses per G/L (from OIG as of 3/1/04)
Less: Initial Reductions to Grant (Attachment 1-B)
Less: Resolved Questioned Items from Draft Report (Attachment 1-A) (1
Less: Items Disallowed based on Account Title (Attachment 1-A)
Add: Joint Expenses Allocated on Payroll Hours (Attachment 1-C)
Less: Immaterial Variance

Total Claimed Expenses per P&L by Class Report for the Grant            $1,1

        With the exception of the joint expenses ($55,137), there are significant dollar
reductions in the costs charged to the Grant in the amount of $214,625, Both amounts net to
a cost reduction of $159,488 as shown in the Schedule. A detail of the $214,625 is shown in
Attachment 1-A, which is a 3 page document. The disallowed amounts become cost
reductions to the Grant. The accounting mechanism to transfer cost from the Grant (thereby
reducing its total cost) is the use of an adjusting or general journal entry.

       Each of these journal entries is numbered for reference purposes, such as IGJEO1.
The journal entries have two components a "debit" and "credit" to an expense account. In
accounting jargon, the "debit" is placing a positive amount (e.g. $100.00 for telephone, G/L
account 5 120) to the G&A Class, and the "credit" is removing $100.00 of telephone expense
from the Grant, where the total cost is hereby reduced by the credit of $100.00. ASC has
agreed to have an A-133 Single Program Audit for the entire Grant period and this audit
should provide better clarification as to the allowability of the remaining costs on the Grant.

        Attachment A-1 provides the detail of each item questioned and removed from the
Grant. Starting on page 1, we start with the specific items from the Draft Report, Table 2
under Section 7 pertaining to personal and bank card issues. ASC presents each of the
general journal entries from our QB accounting system that shows in red font, that those
items were credited to the Grant. Thus, the first grouping of questioned costs reductions
pertain to the Draft Report and total $103,143. There may be a few instances where the
journal entry includes some items that have no impact or cost reduction to the Grant and are
highlighted in blue font and are shown in a separate column called "No Credit to PTP". With
respect to the questioned items from the Draft Report, the columns on the right (of
Attachment 1-A) provide additional information as to the table, report recommendation
number, page number and explanation.

        Shown on page 2, there are three journal entries to credit the Grant for $755 for
general ledger account titles that appeared to be of an indirect nature or unallowable and as
such were credited from the Grant. Up to this point, all credits to the Grant are shown with
the unique general journal reference number from the QB accounting system.

       The last grouping starts at the bottom of page 2 and ends on page 3 of Attachment 1-
A. These are the "Initial Reductions" to the Grant around March 1,2004 when the OIG
started its field work. Both parties observed certain items on the Grant that were unallowable
and should be credited to the Grant, thereby lowering the overall cost to the Grant. The total
cost reduction to the Grant as shown on Attachment 1-B is $1 10,727.

        The schedule presented in Attachment 1-B is the bottom portion of an EXCEL file
provided by the OIG, "Crosswalk Budget v Actual Exp", tab "P&L by Class", rows 43 to 53.
We numbered each of these initial reductions from [I] to [14] so as to both explain and
demonstrate that the cost was credited to the Grant. The only two items that did not reduce
costs to the Grant was items [2] and [8]. Item [2] for $1,447.79 was a reclassification from
Contract Labor to Salaries Expense but both related to the Grant. Item [8] for $809.00
pertained to the Kellogg Grant. This item was transferred from the Kellogg Grant to G&A
and had no impact on the Grant.

        The rest of the (14) items did reduce the cost on the Grant. The impact on the Grant
is explained and shown at the bottom of page 2 and ends on page 3 of Attachment 1-A. As
we previously explained, the usual method for transferring cost from the Grant (a cost
reduction) and placing the unallowable items in G&A, is through the use of a general journal
entry. Since there was a voluminous amount ofjournal entries with respect to the initial
reductions, the accountant re-coded the cost from the Grant to G&A without using a journal
entry to expedite the process. In doing so, there are no journal entries to show the cost
reduction to the Grant.

       In order to demonstrate that these costs were indeed removed from the Grant, we
show the P&L by Class for the Grant for each fiscal year as of March 1,2004 before the OIG
field work started, and after the audit as of August 30,2004. A simple comparison of a
highlighted expense account will show that there was a cost reduction to the Grant. The
following example is provided to demonstrate the cost reductions.

        At the bottom of page 2 from Attachment 1-A, the first initial reduction, item [I] is
for unused benefits. If you review side by side Attachments 2-A (FY 2000 P&L by Class
for the Grant as of March 1,2004) and 2-B (FY 2000 P&L by Class for the Grant as of
August 30,2004, look at G/L account #8010 Benefits expense [I] for $4,636.89 as compared
with G/L account #8025 Benefits Allocations [I] for $963.86, respectively. These amounts
are highlighted in red font. The difference is a cost reduction to the Grant of $3,672.03 as
shown in both Attachments 1-A and 1-B. Follow this same process for the remaining 13
items and use the appropriate attachments referenced, i.e. for the remaining fiscal periods of
FYs 2001 (Attachments 2-C and 2-D), 2002 (Attachments 2-E and 2-F), and 2003
(Attachments 2-G and 2-H). Please note that there are a few items where we were able to
provide the general journal entries or the check detail which shows that the P&L Class is now
G&A and not the Grant, i.e. Attachments 2-1 through 2-L.

       The last area in the Schedule pertains to the allocation of joint expenses using payroll
hours. A summary is provided in Attachment 1-C. An explanation of how the joint
expenses are allocated is discussed under Item 13 of this response "Allocation of Joint
Administrative Cost.

        ASC allocated joint expenses to both the Grant and G&A based on payroll hours of
personnel. Based on the pro-rated salary expense to the Grant and G&A, we backed into
ASC's labor hours by dividing its yearly salary cost by 2,080 hours to develop their effective
pay rate for a fiscal year. Then we divided the allocated labor cost by the pay rate to
ascertain the labor hours. Based on this analysis, the percentage of labor hours for the Grant
and G&A for the fiscal years is as follows.

       Fiscal Year             O h   the Grant        O h G&A

       2000                              54%          46%
       200 1                             67%          33%
       2002                              69%          3 1%
       2003                              70%          30%

        We used these factors to allocate the following joint expenses for these fiscal periods:
office supplies, postage and delivery, printing and reproduction, telephone, supplies, rent,
professional fees: accounting, and payroll taxes. Because benefits were pro-rated on the
same basis as salary expense, i.e. payroll dollars, we did not attempt to change its allocation
basis. The result of the allocation of these joint expenses increased the cost to the Grant by
$55,137 as shown in the Schedule and Attachment 1-C.
                                                                      For FY's 2000,2001,2002, and 2003 Ending 12/31/2003 R
                                                                       Kesults per OIG                      Results per ASC
                                                               ----Actual ----                     ---- Actual --           Attachment 1-A
                                                                                     Questioned     Expensesper       Resolved       OIG Report
                                                               Expenses per
              Expense                   Budgeted Total                              Per 'IG Draft                    Questioned      Reference
                                                                 Adj GIL                            P ~ by
                                                                                                         L Class
                                                                                       Report                           Cost          Sections

Salaries:
PTP Coordinator (90%)



                                       I
PTP Admin Assist (67%-90%)                       $64,683
                                                                   $369,071
   Stnds & CDLl Coordinator (90%)                $72,450                                                  369,229
Coordinator (10%)                                $20.834
Staff Benefits                                   $94,590            $57,375                                82,494
                                      1
Subtotal

Contracted Services:
                                               $412157
                                                           1       $426,446             $426.446          451,723             520         II, IV



Fiscal Agent                                                        $15,918                                10,757
Research Consultant                                                $101,676              $65,462           51,308          48,567         Ill,VI




                                                           I
Subtotal                                         $61,979           $1 17,594                              $62,066



Travel:
PTP                                             $191,400
CDLl Travel                                     $140,000
                                                                   $417,676
Youth Commissioner Travel                        $64,000
Standards Travel                                 $40,000
2003 Nat'l Conf                                                     $29,170

Subtotal                                                           $446,846              529 378          442,740          23,773    Ill. IV, Vll, Vlll

Ooeratina Costs:
Supplies                                         $18,600            $35.154                $4,965           55,751          4,966         Ill.IV
Telephone                                        $47,500            $37,896                                 27,279
Postage                                          $19,000             $3,317                                  2,699
Printing                                         $20.661            $14,827                                 13,361           1,462           IV
Rent                                             $50,000            $37,761                                 43,368
Electronic Communications                        $27,000                                                    39,580
Website Development                                                 $66,175              $55,880                           23,855         111, VII
Other IMisc.                                                         $2,439                                  1,700

Subtotal                                        $182,761   1       $197.569                                183,738


Total                                         $1,188,297   L $1.188.455
                                                             - .        --,   - -       $582.131
                                                                                        .   .           $1.140.266        103.143
                                                           I
GIL Accounts (By Title Description) Disallowed by ASC (seezachment I-A)                                                       755
Initial Reductions per 01G "Analytical Review: Budget v. Actual Expenses by Year" (see Attachments I-A and 1-6)           110,727
Increase cost to PTP Grant due to the Allocation of Joint Expenses based on Payroll Hours (see Attachment I-C)            (55,137)

Total Resolved Cost (see Attachment I-A)
Immaterial Variance

Total Expense per GIL per OIG "Analyt~calReview: Budget v. Actual Expenses by Year"
Total Cash Drawdowns                         $1,172,698
Total Funded Grant Award                     $1,314,902
Period of Performance: June 1,2000 through June 30,2004
R = Does not include allowable and allocable expenses incurred from January 1,2004 through June 30,2004.
 = The non-definitized budget and remaining funding of $126,605 = total funding $1,314,902 less definitized budget of $1,188,297.
                                                                    5
        The OIG reports that it believes ASC has "significant management
control/deticiencies" concerning ASC's recordkeeping. While ASC agrees that the
management and control systems were not used effectively to categorically ensure
segregation of costs charged to the Grant and other sources, the systems were, in fact in place
and codified as official policy. Sufficient documentation exists to support appropriate costs
charged to the Grant. As explained more fully below, ASC acknowledges certain accounting
errors and a misunderstanding as to use of those accounting procedures.

        We note that the controls that ASC had in place to track the spending of Grant funds
were not used appropriately in addition to not having in place other systems that would have
gone further to ensure reliability, stability and accountability in our financial systems.
Further. we appreciate the OIG's Report as constructive criticism. We understand and
concur that it is the OIG's responsibility to protect the Government's interest through
effective examination and constructive feedback on financial management systems. ASC
believes it is vital to our work and the work of the Corporation to resolve each issue
presented in the Draft Report to the Government's satisfaction. We note, in the spirit of
cooperation and in response to the OIG's feedback that a Corrective Action Plan (CAP) as
discussed later in this response has been prepared and is being implemented by ASC. As of
January 1,2004, ASC implemented portions of its CAP.

       There are three areas of concern identified in the Draft Report:

               (1) Accounting and management control system deficiencies
               resulting in the questioned costs;

               (2) Allegations that ASC has engaged in lobbying with the use
               of Grant funds; and

               (3) Allegations that Grant funds were used for personal
               expenses.

        We address all of these concerns in our response. As the OIG has stated on numerous
occasions, it is our joint goal to clarify and resolve as many of the issues presented in the
Draft Report as possible so that only a few, if any, items would remain to be settled by the
CNCS Audit Resolution. With respect to Item (1) accounting and management control
system deficiencies, to the extent that deficiencies exist, we believe that they have been or
will be fully remedied soon. As set forth below, we will respond to each item raised in the
Draft Report. In each case we will either concur with the Report or identify what corrective
action has been or will be taken, or we will explain our disagreement with the position taken
in the Draft Report. In many cases we concur with the Draft Report with regard to
accounting and management control/system deficiencies and are taking aggressive steps to
remedy those deficiencies.

       As explained in more detail below, ASC understands the concern regarding the use of
Grant funds for lobbying activities prohibited by OMB Circular A-122, and the ASC Board
of Directors in no way support the deliberate charging of personal or lobbying expe'h~esto
the Grant. We fully understand the highly sensitive nature of such activities and thd need to
segregate them from publicly funded Grants. We do not believe that ASC participated in
lobbying activities, but we are not contesting the disallowance of those charges identified by
the OIG as lobbying activities. We have credited those charges to the Grant. Additionally,
we believe that our CAP will add safeguards to better avoid any prohibited lobbying
activities in the future. To the extent that any personal or perceived lobbying expenses were
mistakenly charged to the Grant, we believe that such charges were a result of control/system
deficiencies that have been or will be corrected. The Grant has been credited with any
personal expenses incorrectly charged to the Grant. Finally, the Board of Directors of ASC
has taken measures to ensure these charges are credited to the Grant as a cost reduction as
explained throughout this response, and illustrated in the Schedule on page 5 and
documented in the attachments.



       1.      Introduction

         From the beginning, ASC has only desired to attain the highest return for the
Corporation's investment as well as to conduct ourselves with business practices and ethics
at the highest level. ASC and its members are committed to the ideals of community service
that the Corporation supports with its grants. Unfortunately, our intentions did not result in
the implementation of strong financial management processes for the Grant. We apologize
for this lapse and for the resulting misunderstandings that the errors have caused regarding
the questioned costs. This lapse was a result of our management's lack of understanding
with respect to the Grant's financial management requirements, and it was compounded by
the lack of direction and incorrect information furnished by GMS, the accounting firm upon
which ASC relied to put the initial policies and procedures in place. In addition,
management failed to realize the absolute need for clear, timely. accurate and precise systems
that segregate the Grant funds from other sources of unrestricted and restricted funds. Again,
the Board of ASC has taken aggressive steps to resolve this issue including the creation and
adoption of detailed policies and procedures to which all ASC staff will be required to certify
their compliance.

       2.      Overview of book keep in^ Responsibilities

        ASC opened its office in Washington, D.C. in June 2000. Until March 200 1, the
Texas Foundation was the fiscal agent for ASC and the Grant. The Executive Director of the
Texas Foundation or his appointee maintained the books and records for ASC on a fee for
service basis to the Foundation. At that point ASC decided to maintain its own books and
records in order to ease the processing of payment vouchers and to obtain financial reports.
ASC began to transition these functions in January - February 200 1.

        Bill Sundermeyer, ASC's Executive Director, and Jeanne Sanders from ASC met
with Susan Meche, CNCS Grants Officer on November 29,2000 to discuss the process to
begin draw downs from U.S. Department of Health and Human Services (DHHS) and to
discuss the potential transfer of fiscal agency from the Texas Foundation. Mr. Sundermeyer,
signed the Financial Management Survey on December 6,2000. Mr. Sundermeyer
subsequently explained that, at that time of filling out the survey, he believed that the Texas
Foundation had adequate accounting and management control systems. Mr. Sundermeyer
explained that he did not intend to represent that ASC had those control systems in place, but
rather that ASC would develop those systems as the new fiscal agent for the Grant.

       The Board of ASC has reviewed the survey and notes that it combined with a written
comment by Ms. Susan E. Meche of the OGM noting that "AASSC will establish and
maintain adequate procedures & policies to ensure the federal funds are managed according
to OMB circulars," raises some confusion as to the understanding of the purpose of the
survey. However, the Board of ASC understands that the systems it believed were in place
may not have been fully used at the level intended by the survey.

         With respect to ensuring the spirit of good stewardship of the Grant, ASC
management took extra-ordinary care to ensure that the work of the Grant continued
regardless of whether the Corporation funds were immediately available. As an illustration
of this care, the transfer of fiscal agency to ASC required: 1) establishing a separate checking
account for the Grant initiated in December 2000; 2) notifying the DHHS that the electronic
disbursements should be made directly to ASC; and 3) complying with requirements for
information from the CNCS Grants Officer (such as Board-approved personnel policies and
the Financial Management Survey).

        Although ASC incurred costs from June 2000 that should have been charged to the
Grant, ASC did not make its first draw down from the Grant until February 2001. It was
often the situation that over the life of the Grant there were delays in funding that slowed the
reimbursement of costs to ASC. Frequently, ASC was floating the Grant operation. When
ASC requested funding, the Executive Director deliberately requested less funds than ASC
was entitled to charge to avoid over-billing of the Grant

       In February 2001, the Executive Director entered data into Quick Books Pro (QBP),
ASC's accounting software. Original vouchers were reviewed by Colleen Martins, including
payment authorizations. Jeanne Sanders approved the disbursements, and Colleen prepared
the checks for the Executive Director's signature.

        Early in 2001, ASC started to look for a bookkeeper and secured GMS, a firm
working with a suitemate organization, the AmeriCorps Alumni Association. ASC discussed
the level of knowledge and satisfaction with GMS with the Executive Director of
AmeriCorps Alums as well as the needs of ASC with GMS. GMS indicated they knew how
to account for federal grants. GMS stated that such accounting could be done on a cash
basis. GMS reviewed ASC's Grant documents and other requirements.

        ASC management relied on GMS for guidance with respect to Grant accounting
requirements. ASC's travel requirements increased during 2001 and 2002, and so did the
tracking of travel expenses. ASC management used the American Express card ("AMEX)
for travel expenses. The AMEX bill was becoming increasingly complex, but GMS advised
ASC management that it did not need to retain detailed receipts in addition to the AMEX
summary statements. Even so, ASC management retained detailed supporting
documentation. Colleen Martins, Crystal Lee and later Jeanne Sanders, ASC contractors and
employees, coded the information from the AMEX bills into QBP.
        Gina Smallwood of GMS provided monthly accounting services in the areas of
allocating payroll and the AMEX charges. If Colleen or Crystal was behind schedule in
coding the AMEX bill, Gina would estimate the split between the Grant and ASC's other
expenses on an 80% to 20% ratio, so that she could close the month's accounting and prepare
financial statements. Ms. Smallwood generated monthly statements from QBP. In addition,
she journalized the payroll entries, cross checked them, and then reconciled the accounting
information.

        During 2001 and 2002. the Executive Director classified some of the AMEX or
expense details and signed checks. Classifications were not consistently used. During this
period, the Executive Director reported that he was not directly involved with the
bookkeeping at ASC and that Jeanne Sanders was providing oversight as to the coding of
entries into QBP by ASC staff.

       In the latter part of FY 2002, ASC terminated Crystal Lee and brought on Zelma
Williams. Also, ASC was displeased with the timeliness of GMS' work and terminated
GMS. At that time the Executive Director and Zelma Williams managed the accounting
systems for ASC. Since the Executive Director and Zelma Williams were trained in part by
GMS, they continued to use the flawed accounting system developed by GMS that has now
been demonstrated to be deficient.

       In the summer of 2003, the Executive Director gave a summer intern the task of
reviewing the details of all AMEX statements. Specifically, the intern was required to verify
the annotations on the AMEX statements to Grant and non-Grant activities. The intern
developed a summary worksheet of AMEX charges by month.

        The payment process ASC management used involved paying travel reimbursements
relating directly to the Grant from the Grant checking account. The rest of the Grant and
ASC expenses were paid out of the ASC operatingkhecking account. For instance, all
payroll charges were paid out of the ASC account. When ASC would draw down h n d s
based on actual Grant expenses, the money would be sent directly to the Grant checking
account. A transfer of funds, by check from the Grant checking account to the ASC checking
account, was accomplished to reimburse ASC for Grant charges paid out of ASC's operating
account. In 2004, receivable and liability accounts (due fronddue to) general ledger accounts
were established to track the amounts owed between the two bank accounts. These accrual
accounts represent a form of fund accounting.

        We believe that mistakes were made in the coding of expenses between the Grant and
non-Grant classifications/activities because in QBP, the next data entry is set up on a default
mode. This default goes to the last checking account used as well as the last classification
selected. If the person making the transaction is not careful in confirming the account and
classification, entries will continue to be made to the prior bank account or classification
designated. This process would perpetuate incorrect classifications between the Grant and
non-Grant activities.

       The Executive Director was heavily involved in the other ASC and Grant operations,
and he subsequently noted that he no longer had time to review and "scrub" the AMEX and
other expense classifications for accuracy and segregation. He stated that he relied on other
ASC staff to conduct that function. ASC's Board of Directors fully understands that
financial stewardship and management is a primary function of the Executive Director and
this task was not fully and effectively performed during the period covered by the audit.
Corrective action steps have been taken to ensure that all ASC staff, but especially the
Executive Director understands this priority. The Board of ASC also understands that it is its
role to ensure this accountability, and the Board is taking steps to ensure that its role is
clearly and effectively implemented.

       3.      RFP for Audit Services for ASC

       On October 9, 2003, the Executive Director, at the direction of the ASC Board of
Directors sent out an RFP for audit services as follows: (A copy of the email RFP is
provided in Attachment 3.)

               "The organization is in need of financial audits for the fiscal
               years of 200 1 and 2002 as well as a final audit of the CNCS
               cooperative agreement following the completion of the 2003
               program year. An additional separate audit is needed for the
               organization finances for the same timeframes. Assistance is
               also needed in the preparation of the annual 990 IRS report."

ASC's current accounting consultant, Rubino & McGeehin (R&M) responded in its proposal
to perform the following services:

                      Prepare federal form 990 and schedule A for fiscal year 2002 on the
                      cash method of accounting (same method as used by prior year
                      accountants for fiscal year 2001);

                       Assist ASC staff with converting from the cash method of accounting
                       to the accrual method of accounting for fiscal year 2002;

                       Set-up new accrual method accounting system for fiscal year 2003;
                       and

                       Assist ASC staff with converting from the cash method of accounting
                       to the accrual method of accounting for fiscal year 2003.

        R&M completed the preparation of the extended FY 2002 tax filing by mid-
November 2003. When R&M started to convert from the cash basis to accrual, R&M
notified us that much more work would have to be done than originally anticipated. Because
the expenses recorded on a cash basis were inter-connected between the fiscal years, correct
practice dictated that the books and records would have to be restated on an accrual basis
from the start of the Grant in FY 2000. R&M started work on our accounting system in
December 2003.

        R&M explained that since it had performed so much work revising our accounting
system to reflect an accrual basis, for purposes of independence either under the AICPA or
Yellow Book standards, R&M could not perform any audit. Also, part of the process of
putting ASC books and records on an accrual basis was to ascertain which fiscal years would
                                               10
have Grant expenses that exceeded the Single Audit threshold of $300,000. When R&M was
retained, the Executive Director had not understood that another accounting firm would need
to be hired to perform the A-1 33 audits.

       4.     OlG Request to Audit the Grant Costs

        On January 7, 2004 the OIG notified ASC of its intent to perform an incurred cost
audit of the Grant expenses. The OIG asked if any OMB Circular A-133 audits had been
accomplished or were scheduled. At that time, none had been accomplished or scheduled.
After discussions with the OIG about the absence of prior audits, the OIG requested a
meeting with ASC as soon as possible.

        ASC management met with the OIG on February 2,2004. In that meeting, we
discussed the current state of our accounting records. We showed the OIG our last draw
down, and we explained that we had under-billed the Grant. ASC management explained to
the OIG that we did not have employee timesheets, but that ASC management would obtain
affidavits and additional documentation to corroborate the work we performed through
December 3 1,2003. Also, R&M provided documentation showing that ASC management
implemented timekeeping procedures in 2004. We explained that our accounting records
were not suitable for audit. The OIG delayed the start of its fieldwork until March 1,2004.

       ASC management, with R&M, accomplished a number of activities before the start of
the OIG audit, including the following:

               Bank reconciliations of both Grant and ASC for all periods;

               Bank reconciliation of Texas Foundation in 2000;

               Training of personnel on appropriate data entry procedures in QBP;

               Completed payroll schedules;

               Finalize 2000,2001,2002 and 2003 income and expenses to accrual basis;

               Developed financial cash analysis schedules based on draw downs from
               DHHS:

               Prepared grants receivable as of 12131/2003;

               Journalized payroll and benefit entries based on Grant budget percentages;
               and

               Coded non-labor entries based on summary schedules from AMEX charges.

       During the month of February 2004 as we prepared the books and records for the
OIG7sreview, we did not have sufficient time to review transactions by tracing charges in
QBP to the source documentation to ensure that the expenses were correctly assigned to
Grant and non-Grant activities. Due to the condition of our books and records, we did not
have the time before, during or after the OIG audit to carefully review the transactions to
                                              11
ensure proper coding. Our purpose between February 2 and March I, 2004 was to get the
books and records to a suitable level for the OlG7sreview. Our staff was primarily involved
with finishing the data entry into Quick Books for the last 4 months of FY 2003, which ends
December 3 1

        During the OIG's field work in March and April 2004, ASC personnel, as well as
R&M, devoted their time to responding to the auditor's requests for documentation. As we
provided documentation to the auditors or as the OIG asked specific questions, it became
clearer to us that there were inconsistencies in the classification of certain charges to the
Grant, and other recordkeeping problems. These discoveries only confirmed the
reasonableness of our request on February 2,2004 that the OIG delay its review until ASC
could thoroughly investigate our accounting system and ensure that charges were properly
classified to the appropriate cost objective.

         We understand that the OIG had a mandate to complete its review within a certain
time period, but the deficiencies identified in the Draft Report were deficiencies that ASC
had already begun to discover, but did not have sufficient time to correct them prior to the
start of the OIG's field work. Most, if not all, of the deficiencies identified in the Draft
Report most likely would have been identified and resolved before the OIG started its field
work if that work could have been delayed only a short time longer. However, ASC
acknowledges that it did not fully implement the effective use of its systems initially in a
manner that would have avoided the errors altogether.

       5.      RFP for A-133 Audits
        In late February 2004, ASC management implemented the Board of Directors' call
for an independent audit. ASC issued an RFP to 4 public accounting firms to perform an A-
133 audit for FYs 2001,2002 and 2003 since those years exceeded the single audit threshold
of $300,000, see Attachment 4. In mid-March 2004, we selected SLO, Lemkin and
07Brien,LLP CPA firm ("SLOW). Our initial kick-off meeting with SLO was held on April
6,2004, when we discussed their list of requested items.

        As a result of our discussions, SLO planned to start its fieldwork on May 10,2004.
Between April 6 and May 1oth,R&M helped ASC prepare certain audit schedules and other
documentation that would be required for SLO to perform the A-133 audit. Based on
concerns raised by the OIG during the preliminary exit conference on May 24th,ASC
suspended SLO's audit work unt.1 the OIG released the Draft Report which did not occur
until July 3oth.

        Using the Draft Report. SLO would incorporate all of OIG's questioned costs and
expand SLO's review in the areas of concern. Essentially, SLO must start its audit over
because the scope was increased. The additional effort will increase the cost of the A-133
audits. Despite SL07sdoubts that audits for FY 2001 and 2002 are required, ASC intends to
have SLO complete an A-133 audit for the entire period of the Grant to assure CNCS that its
interest is protected as well as to facilitate negotiations with Audit Resolution.

       ASC has provided the Draft Report dated July 3 0 ' ~to SLO so that it can reinitiate its
A-1 33 audit. We would not expect SLO to complete the audit for the entire three and a half
year term of the Grant until early October 2004. However, we have requested a more precise
estimate of SLO's new anticipated completion date. The delay has to do with SLO's
scheduling the audit given their labor resources for which ASC has no control. We are
exploring the possibility of having a Single Audit Program through the stop work date of July
30. 2004 so that all Grant periods are covered for audit resolution.

B.     Response to the Report Findings

        We will respond to each of the items in the Draft Report including all of the
transactions scheduled in Tables 1 , 2 and 3. ASC will highlight areas where we concur with
the OIG's position and any related questioned cost and where we do not concur. ASC will
also address the remedial measures required through our Corrective Action Plan (CAP).

            Management Control Deficiencies, Instances of Noncompliance, and OIG
                                Recommendations

       1.        Financial Mana~ementSystems

       OIG Findings:

       The OIG stated the following concerns:

        1.     ASC did not accurately allocate costs among funding sources and respective
cost objectives,

       2.    .  ASC did not provide accurate, supported and auditable expenditure reports for
its Federally-sponsored program, or

       3.       ASC did not maintain effective controls to ensure the reasonableness,
allocability, and allowability of costs incurred under the cooperative agreement.

       ASC Response: Systems were not sufficiently implemented or established to ensure
       full and accurate accounting, however sufficient documentation exists and some
       necessary adjustments have been implemented to ensure the integrity and proper use
       of the Grant funds.

       We concur that there were insufficient procedures and internal controls being utilized
to ensure the accurate allocation of costs to Grant and non-Grant activities. Some of the
reasons for the lack of implementation of procedures were discussed in the previous section.
However, the accounting system within QBP was set up to segregate costs between the Grant
and other cost objectives. Thus, there was no absence of accounts for assigning and
segregating cost by Grant and non-Grant activities.

       R&M helped ASC management to recognize the need for internal controls. ASC
management implemented the timekeeping procedures and has recorded time using
timesheets beginning in January 2004 as well as a labor distribution instruction. This issue is
discussed further in our response. Thus far, R&M has assisted ASC management in
developing the following draft procedures that the Board of ASC has reviewed and approved:
              Travel to include advances, trip report and travel expense voucher;

              Indirect allowability with a training in MS Powerpoint;

              Credit card procedures;

              Code of ethics:

              Capitalization policy; and

              Consulting and subcontractor agreements.

        After reviewing the recommendations in the Draft Report, we added additional
procedures and forms. All of these procedures are incorporated in ASC7sGrant Accounting
Operating Manual (GAOM) which is attached as a separate enclosure in notebook form. We
also provided this manual to the executive staff at CNCS on August 12,2004.

        The following is a complete list of the procedures and forms from the GAOM's table
of contents. We have annotated this list to correlate it to one of the eight recommendations
from the Draft Report. The purpose of this analysis is to demonstrate that we have
established procedures to correct and improve our financial accounting system and internal
controls to comport to the OIG's expectations as stated in the Draft Report. Please note that
"R" = OIG recommendation number and we provide the page number from the Draft Report.

Ref. No.                                     Items
   1         - Capitalization Policy
   2           Code of Ethics

   3           Consulting and Sub-Awardee Documentation (R 3.1, R5, and R 6 from pages
               13, 18, and 19 respectively)

   4           Credit Cards
                      Forms:
                      Credit Card Issuance
                      Credit Card Holders Log
                      Record of Credit Card Transaction (see AMEX Credit Card Form)

               Documentation (R 7.1 from page 22)
                    Forms:
                    Record of AMEX Credit Card Transactions
                    Cash Receipts Log
                    Check Request Form
                    Donated Property / Space Form
                    Petty Cash Replenishment Form
                    Petty Cash Withdrawal Form
                    Purchase Request Form
                    Long Distance Telephone and Conference Call Log
              Financial Reporting Procedures (R 1.1, R 1.2, R 3.1 from pages 9 and 13)
                     Forms:
                     SF Form 269

              Indirect Cost Allowability
                      Attachment:
                      Powerpoint Slides on A- 122

              Joint Expenses (Item IX - Other Matters on page 25)

              Labor Distribution Instruction (R 2.1 from page 10)

              Lobbying Activities (R 4.2 from page 17)

              Segregation of Duties for Cash, Credit Card & Related Transactions (R 7.1
              from page 22)

              Timekeeping (R 2.1 from page 10)
                    Forms:
                    Timesheet Record
                    Job Assignment Record
                    Employee Timekeeping Certification

              Travel Expense Reporting (R 8.1 from page 24)
                     Forms:
                     Travel Authorization Request - Cash Advance
                     Travel Expense Report
                     Record of Business Conference Expense
                     Trip Report


       The OIG states that the audit was delayed per ASC's request so that we could have
"the opportunity to review and assign each expenditure to a specific cost center." As we
explained above, ASC management did         have time to review all of ASC's records to
determine the correct assignment of costs to the Grant and other non-Grant activities. Rather,
with the support of accountants, ASC management listed the specific steps undertaken to get
the books and records ready for the OIG field work that commenced on March 1,2004.

        The FSRs were prepared by the Executive Director (ED) and reflected cost incurred.
The ED used his own methodology for summarizing the cost for reporting and under-billing
the Grant. As a part of o w CAP, FSRs or SF Form 269s will reconcile to the Grant class in
QBP where draws are predicated on cost incurred for a particular period. R&M will assist in
the preparation of the quarterly FSR to ensure accuracy.

        As we explained, the A-1 33 audits were not technically overdue. According to SLO,
A-133 audits for FY 2001 and 2002 are not required. However, ASC had decided on its own,
before the OIG issued the Draft Report that we would perform an A-1 33 audit of all fiscal
years back to the inception of the Grant in FY 2000 to ensure that the Grant costs are
accurate. The OIG stated that costs were not consistently and correctly assigned to the Grant,
so it cannot provide an opinion about costs incurred for the Grant. For this reason, we are
committed to have A-1 33 audits performed back to the Grant's inception.

         Although ASC believed that it did at the time, ASC acknowledges that it did not have
the full utilization of all systems necessary to adequately address the applicable regulations
and Grant provisions with respect to the assignment of costs to the Grant. To assure the
Corporation that these shortcomings will not be repeated in the future, our CAP includes the
establishment of the appropriate internal controls and the implementation of procedures for
the adequate financial management of the Grant. In addition, R&M is training ASC staff on
the proper accounting processes, and R&M will assist in reviewing our work. Lastly, the A-
 133 audits should provide additional assurance that only the appropriate costs are charged to
the Grant.

       2.      Salary Cost Documentation

       OIG Findings:

       The OIG stated that ASC had not maintained timekeeping records to support the
recording of salary expense to the Grant and other non-Grant activities on an actual basis.
OIG stated that ASC charged the Grant 100 percent of the budgeted salary allocation.

       ASC Response: Sufficient documentation of work effort exists

         ASC did not use timesheets to support the recording of time charged to Grant and
non-Grant activities for the Grant period of FYs 2000 through 2003. Although we charged
all of the approved salary budgets to the Grant, these charges do not represent all of ASC's
salary expense, as shown in the following table. Membership fees collected from the state
commissions made up the remaining h d s to cover salaries.

                                       Percent Funded bv CNCS

            Staffing                    2001        2002       2003
 Administrative Oversight               10%         10%         10%
 PTP Administrative ~ssistant           67%         90%         90%
 PTP Youth Coordinator                  90%         90%         90%
 PTP Standards & CLDl
 Coordinator                             nla        90%         90%

 Average Support Percentage
 by Period                              56%         70%         70%



       The table is not weighted based on salaries. If it was, the average support by period
would be much less.
         As stated in our affidavits attached (see Attachments 5-A, 5-B,5-C, and 5-D), all
employees spent more time on Grant activities than the percentages shown in the table. In
addition to the affidavits, they provided a variety of corroborating documentation
demonstrating that they performed work and provided deliverables to CNCS. Moreover, a
letter dated March 8,2004 from the Director of Grants Management acknowledged ASC's
efforts to implement timekeeping procedures, see Attachment 6.

       These are the procedures we have implemented with respect to the recording of time
on an actual basis as of January 2004. The timekeeping policy covers:

               o Training of personnel

               o limesheet preparation

               o Defines the direct and indirect charge codes

               o Timekeeping forms

               o Labor distribution instruction

         The use of a "Labor Distribution" is necessary to collect and summarize labor hours
and cost by employee and activity or by Grant. MS EXCEL pivot tables are used to collect
monthly time sheet data for our labor distribution schedules. Time charges from the MS
EXCEL timesheets are linked to the pivot tables to generate a labor distribution by employee.
This salary cost data becomes the basis of the labor charges in the general ledger by class that
ultimately supports the Grant and other non-Grant activities. Starting in June 2004, ASC
staff started using the electronic timekeeping capabilities within Quick Books software which
accomplishes the same result as the manual labor distribution process.

       We understand that for purposes of the OIG audit, 100% of the labor costs charged to
the Grant were questioned, i.e. $426,446. Based on the explanation above and the supporting
documentation ASC has furnished, ASC requests that CNCS Audit Resolution determine that
 100% of the questioned salary costs should be reinstated as proper charges to the Grant.

       3.      Duplicative Reporting of Certain Expenses

        OIG Findings:

        The OIG stated in the Draft Report that due to the lack "of an integrated and self-
balancing accounting system allocating expenditures among various grants and other cost
centers allowed the duplicative reporting of certain expenses". According to the OIG, this
occurred between the Kellogg Foundation and the Grant for:

               Training activities;

               Redesign of the training curriculum by consultants; and

               Website development which pertains to Item No. 8 of our response.
       ASC Response: Some entries were incorrect and should be changed

        In reviewing our books and records, we determined that a total of $72,901 in costs
mostly charged to the Grant and some charged to G&A should have been charged to the
Kellogg Foundation Grant during FY 2003. We corrected those errors. We have provided
our adjusting journal entries (as shown in Attachment 1-A, reference no. 111) as support for
the corrections. The general ledger accounts adjusted were Web Page - G/L 5 180,
Professional Fees - Consulting - G/L 6053, Office Supplies - G/L 5050, and Travel &
Entertainment: Travel - G/L, 5 133.

        Based on our review of the entries within QBP, it appears the entries to the Grant
were the result of incorrect coding, not duplicative charges to the same accounts. These were
incorrect charges not double charges. CNCS Grants Management requested ASC to make
this correction which was done on May 28,2004.

       4.      Lobbvinv and Advocacy Issues

        The Draft Report complains that ASC participated in lobbying or advocacy with
Corporation funds. OMB Circular A-122, Attachment B, Paragraph No. 25 provides the
definition of lobbying and the associated expenditure of costs. While it is our belief that
ASC management did not engage in lobbying activities as defined in A-122 the ASC Board
of Directors will nonetheless remove any doubt by ensuring that the costs for the activities in
question are covered by non-Corporation funds. We will provide additional information for
each of these items to support our transfer of these costs to other sources. The Grant has
been credited with those charges.

        As a specific remedy to costs challenged by the OIG as related to lobbying, the ASC
Board of Directors has secured reimbursements for these costs from other sources where
appropriate (see payment from Michigan Community Service Commission for ASC Chair
travel expenses in Attachment 7). Despite our assertions to the contrary, in the final
analysis the OIG may conclude that some of these activities are lobbying and that the charges
for those activities are not allocable to the Grant. While ASC will dispute any conclusion, to
avoid any doubt and to resolve the issue ASC has credited the Grant with the challenged
costs of $2,354, where the credit to the Grant via an adjusting journal entry is shown in
Attachment 1-A, reference no. IV..

        ASC respects the OIG's concern regarding the potential charging of unallowable
lobbying costs. ASC developed a procedure in our CAP to prohibit the use of Grant funds
for the purpose of lobbying or advocacy. This procedure will impact labor and non-labor
charges. Item Nos. 4 through 8 below will address the OIG's specific concerns.

       a.      Assistance with Video Conference

       OIG Findings:

        The OIG states that ASC supports members' efforts to educate lawmakers on issues
facing the state commissions through training and information sharing. The OIG stated that
since ASC did not maintain timekeeping records, there is no method for identifLing and
tracking lobbying costs. The OIG stated that, through the interview process, it identified an
                                              18
employee that supported the "Voices for AmeriCorps: 100 Hours of Testimony" in August
and September 2003. The Draft Report states that the amount of her time was approximately
60% of her effort over 5 days at a labor cost of $520.

       OIG cites OMB Circular A-122, Attachment B, Paragraph No. 25.a:

               (4) "Any attempt to influence: (i) The introduction of Federal
               or State legislation; or (ii) the enactment or modification of any
               pending Federal or State legislation by preparing, distributing
               or using publicity or propaganda, or by urging members of the
               general public or any segment thereof to contribute to or
               participate in any mass demonstration; march, rally,
               fundraising drive, lobbying campaign or letter writing or
               telephone campaign ..."

       ASC Response: Charges to be removed from the Grant

        Although ASC did not intend to violate any rules, and ASC believes that it has not,
after reviewing the concerns raised by the OIG. we believe that it is in the interests of all
concerned that we credit the Grant account with the $520 of challenged cost. The costs
charged for "Voices for AmeriCorps.. ." actually represented the video conferencing
capability to hook up and tape people's comments on the impact of cuts to the program. In
order to avoid even the appearance of incorrect activities in the hture, after hrther study we
developed a procedure to have ASC employees charge such hours to a non-Grant account.

       b.    . Travel in Connection with Video Conference

       OIG Findings:

        For the same reason cited in item no. 4, the OIG disallowed $372 of the Chairman's
travel cost to Washington, DC from Michigan in order to speak at the "Voices for
AmeriCorps: 100 Hours of Testimony" on September 3 and 4,2003.

       ASC Response: Charges to be removed from the Grant

        While the Chairman was mostly involved with the development of training for state
commission executive directors, which is allowable under the Grant, his role as moderator
did call for communication with key leaders and his participation in hosting the
videoconference was no more than 90 minutes. Since this type of activity could have the
appearance of lobbying, the charges will be removed fiom the Grant. The Chair has since
requested that a bill for the travel costs and, through the use of non-Corporation funds, has
since paid the costs to ASC in full, and ASC has credited this amount to the Grant (see
Attachment 7). In the future, after further study, ASC developed a procedure to have these
costs charged to a non-Grant account.
       c.      Printing of Congressional Directories

       0 1 G Findings:

        For the same reason cited in item no. 4, the OIG disallowed $809 for the publication
of 300 copies of the Congressional Directory, which includes contact information for
members of Congress. Since the directory was distributed to state commission personnel, the
OIG states this has the "implied purpose of facilitating or encouraging individuals to contact
legislators".

       ASC Response: Charges to be removed from the Grant

        ASC does not believe that providing the Congressional Directory is an "implied or
actual form of lobbying activity. When we provided the Congressional Directory no specific
legislation or any legislation was considered. We provided the information as part of the
training that we have a mandate to perform for our state commission members. Although
ASC did not intend it, as the OIG noted, this publication, when combined with the one noted
below, could have the appearance of providing strategies for communicating with lawmakers
and could therefore appear to be a tool for lobbying activities. The charges will be from the
Grant, and the Grant will be credited.

        Since this type of activity could have the appearance of lobbying, in the future, we
will not include in Grant sponsored training sessions the distribution of such material.

       d.      Printing of "Educating Lawmakers"

       OIG Findings:

         For the same reason cited in item no. 4, the OIG disallowed $653 for the publication
of 170 copies of the document entitled "Educating Lawmakers" which includes guidance on
corresponding and meeting with members of Congress. Since this document was distributed
to state commission personnel, the OIG states this has the "implied purpose of facilitating or
encouraging individuals to contact legislators".

       ASC Response: Charges to be removed from the Grant

        ASC does not believe that providing the document entitled "Educating Lawmakers"
is an "implied" or actual form of lobbying activity. All contacts with Congress are not
lobbying, especially those where lawmakers request information. As a part of our training to
educate state commission personnel on the boundaries of such activities and by providing
information about educating lawmakers, no specific legislation was considered for the
purpose of lobbying. However, since this type of activity could have the appearance of
lobbying, ASC will credit the Grant for these charges. We will not include the distribution of
such material in any Grant sponsored training sessions.
       5.      Website Development

       OIG Findings:

        The OIG stated that all of the website cost was charged to the Grant. The OIG raised
a concern that as a member organization, some material was posted to the website such as a
model letter to Congress regarding funding legislation together with a request to members to
email this letter to their Senators.

       ASC Response: Part of the charges to be removed from the Grant

       Please review the backup material to item no. 3 (i.e. Attachment 1-A, reference no.
111) which provides our adjustment from Grant cost to G&A for the cost of the web page
development associated with the Kellogg Grant. In the future, any activity that is construed
as lobbying will not be charged to the Grant.

         In addition, the OIG notes that ASC did use the website for Grant activities, saying
"Some content directly relates to peer-to-peer training activities." The website serves as the
library for much of the content learned from the Peer-to-Peer exchanges and thereby
amplifies the depth and breadth of value of the Corporation's investment in the activities.
Clearly, the website is an allowable cost as part of the communication and dissemination
activities allowed and mentioned in the Grant. However, ASC agrees that any
misunderstanding about the advocacy or lobbying activities must be removed. ASC will
work with the Corporation to determine the proper allocation and segregation of these costs.

         With respect to the remaining $15,190 that exceeds the $27,000 budget, we believe
that this budget excess could be realigned and offset by other budget line items that were
under-budget. Therefore, we respectively request that this budget overage be settled during
the audit resolution phase.

       6.      No Written Consultant Agreement

       OIG Findings:

      The OIG has reviewed the consulting activities and related cost for P. Morse and A.
Clump. Grant charges for Morse and Clump were $17,100 and $28,977, respectively.

        The OIG noted that P. Morse provided service as a Communications Consultant and
charged 50 percent of her compensation to the Grant, with the remaining 50 percent charged
to the Grant from Kellogg Foundation. Grant payments to this individual through December
3 1,2003 totaled $17,100.

        The OIG stated that there is no written agreement between ASC and the individual;
accordingly, there is no formal scope of work. An undated document prepared by the
consultant describes "goals, deliverables, responsibilities and vision for the future," centering
on information management, website updating and evaluation, preparation of weekly e-
bulletins, and conference management. The OIG further noted that specific accomplishments
cited in the document include the planning, organization and execution of ASC's
contribution to the Voicesfor AmeriCorps event.
                                               21
        The OIG also stated that during late 2001, ASC engaged A. Clump to serve as a
Communications Consultant responsible for writing ASC's e-bulletin and assisting with
website development. both of which included a substantial amount of (alleged) legislative
reporting. The OIG complained that this consulting arrangement did not include a written
contract or docun~entedscope of work. The OIG noted that total fees for these services from
200 1 through 2003 total $3 1,052, of which ASC charged $28,977 to the Grant.

        The OIG questioned all of consultant's fees charged to the Grant for Morse and
Clump, which were $17,100 and $28.977, respectively. The OIG's rationale for questioning
these costs is due to the absence of ( I ) a written contract, including a reasonably detailed
scope of work, (2) a self-evident relationship between the individual's services and the scope
of the Grant (activities appear to be more in the nature of member services). and (3) a
signiticant overspending of Consultant Costs in the Grant budget.

       ASC Response: Sufficient documentation of work effort exists

        ASC believes there is sufficient documentation to support the allowability of these
consultant costs as they both performed a necessary function on the Grant. This support is
provided as Attachments 8-A and 8-B. ASC believes the cost for both individuals was
reasonable. ASC has subsequently developed a policy for consulting and sub-award
agreements that address the requirement of having a written contract and documenting a
detailed scope of work. ASC will provide documentation to support its consultants' fees.

        In addition, we request that the CNCS Audit Resolution not disallow this expense line
item or any other cost simply because it is above the line item budget. We would ask for a
budget realignment based on actual costs, so long as we did not exceed the authorized
cumulative funding. ASC has incurred significant costs to transform our project cost
accounting system to a compliant operation in FY 2004. ASC will also incur additional cost
for the A-1 33 audits because the OIG requested audits for all Grant periods. Therefore, we
believe it is reasonable for CNCS and ASC to realign and offset all line item overages with
any budget shortfalls.

       7.      Un-allocable Consulting Fees

       OIG Findings:

        The OIG questioned $19,385 charged to the Grant for consulting services provided by
The Feldman Group. The OIG stated that these services involved designing a questionnaire
and interviewing the chair and executive director of each state commission, and then
reporting on the results and findings to ASC's Board of Directors. The consulting services
were questioned due to a significant overspending of consulting costs in the authorized
budget and the ambiguous relationship between this study and the purpose and objectives of
the Grant, noting that it would be better characterized as a general membership activity.

       ASC Response: Charges to be credited to the Grant

        The Feldman Group performed research in support of the whole program. They
interviewed executive directors and state commissioners for commissioner and staff needs.
This is not an exclusive membership activity; rather this work was performed in support of
                                             22
Grant and other activities including how state commissions might address matters related to
reauthorization. Prior to this research analysis no concrete needs analysis existed for state
commissions and how their needs might be addressed through a peer-to-peer exchange.

        After a year of Grant performance, CNCS and ASC had only minimal data on how
the commissions actually functioned or their needs. This was a collaborative work with
CNCS. At the same time there were a number of issues relating to the reauthorization of the
Corporation's codifying legislation. This mixed message was communicated to the Feldman
Group in their discussions on the scope of work. However, the work of the Feldman report
primarily focused on providing a planning tool for training opportunities for commissioners
and executive directors from the state commissions. While a major portion of this activity
was a valid Grant expense. the ASC Board of Directors recognizes the significance of the
language regarding policymakers and therefore will not request that the CNCS Audit
Resolution reinstate this consultant cost ($19,385) to the Grant as allowable. ASC has
credited the Grant with these charges per adjusting journal entry no. IGJE32 in Attachment
1-A, reference no. VI.

       8.      Alleged Personal & Unallocable Bank Card Expenses

       OIG Findings:

        The OIG questioned $1,978 in alleged personal expenses charged to the Grant. The
total questioned amount is comprised of 18 individual transactions presented in Table 2 to the
Draft Report.

       ASC Response: Charges to be credited to the Grant

        Most of the 18 transactions in Table 2 of the Draft Report were for ASC business
purposes and only a few were due to inadvertent charging of personal expenses, some of
them were in support of the ASC organization. All personal expenses have either been paid
to ASC or billed to the proper individual(s) for repayment. For example, Mr. Sundermeyer
paid back $590.93 for all of his personal expenses. as attached in Attachment 9. As
explained in the previous section, ASC's management procedures did not preclude the
possibility for the miscoding errors that occurred. Our travel and consulting procedures have
been revised to require all ASC personnel, Board members, consultants and sub-awardees to
complete a travel expense voucher.

        The actual amount of items credited to the grant is $1,388.08 as shown in
Attachment 1-A, reference no. VII. Since the (4) four items were initially charged to the
office supplies GIL account number 5055, they were transferred to G&A of which two of the
four were included in the joint expense allocation as previously explained on page 4. Those
four items are for the amounts of: $338.64, $10.55, $131.50, and $109.29, which total
$589.98. Attachment 10 shows the (4) four items transferred to G&A via adjusting journal
entry no. IGJE03.

       The two items included in the joint expense are $10.50 to office supplies (GIL 5050)
and $131 S O (G/L 5070) to postage and delivery highlighted in red font in Attachment 10.
The other two items remained in G&A and were not allocated via the joint expense because
they were reclassified from office supplies (GIL 5050) to travel (GIL 5 133) as highlighted in
blue font in Attachment 10.

       9.      Allocation of Joint Administrative Cost

       OIG Findings:

         According to the OIG, a number of administrative costs are allocated entirely or in
part to the Grant. The principal costs cited in the Draft Report are office rent, telephone
services, and office supplies. The OIG hrther stated that on the other hand, payroll taxes and
an allocation of these costs to the Grant are not supported by the consistent application of a
rational allocation methodology. The OIG stated that it had asked ASC's ED and
accountants to examine these costs and re-allocate them to the various cost centers based on a
rational methodology, and the results of this exercise are pending.

       ASC Response:

       We have developed the following policy for allocating joint costs.

       Joint expenses are mixed items, having a component of direct and indirect cost.
9.1    ASC will use the P&L Class "Joint Expense" to place monthly joint expenses.

       a.      At the end of the month, all joint expenses will be removed from the P&L
               Class by crediting the Joint Expense P&L Class and charged to the
               appropriate G/L expense account in the direct or indirect P&L Class.

       b.      For a G/L expense account, the total in the monthly P&L Class "Joint
               Expense" will be allocated to all direct I indirect, federal 1 non-federal
               activities based on the monthly percentage of labor hour representing all
               activities involved during that month.

9.2    The following G/L accounts are considered as having joint expenses.

       a.      The G/L accounts containing joint expenses are Office Supplies (5050),
               Postage and Delivery (5070), Printing and Reproduction (5080), Telephone
               (5 120), Rent (6030), Accounting (6052), Payroll Taxes (8020) and Benefits
               Allocation (8025).

       b.      The following G/L joint accounts could have direct and/or indirect only
               charges because they can have individual, identifiable items. For example,
               long distance telephone calls or conference calls could be 100% direct or
               100% indirect. For these types of charges, they should first be classified to
               the appropriate P&L Class (direct / indirect, federal / non-federal) and the
               remaining expenses would be coded to P&L Class "Joint Expense". The
               applicable GIL expenses are: Office Supplies (5050), Postage and Delivery
               (5070), Printing and Reproduction (5080), and Telephone (5 120).
       c.      The following G/L joint accounts have no identifiable component that could
               be totally direct or indirect. Thus, these G/L accounts have only mixed (direct
               and indirect) costs: Rent (6030), Accounting (6052), Payroll Taxes (8020) and
               Benefits Allocation (8025).

       10.     Benefits

               OIG Findings:
        Employee benefits charged to the Grant total $57,325. The OIG questions these costs
as unsupported as a part of the questioned cost in Item No. 2 which relates to total salaries
and benefits allocated to the Grant. ASC currently maintains a practice of paying certain
employee expenses, up to 25% of base salaries, as a "benefit," and this practice is generally
cited in individual employment letters. It is the OIG7sposition that since the organization is
well past its start-up phase, it would be appropriate to more formally define and implement
this policy to better comply with OMB cost principles and to avoid income tax issues for the
individual employees.

             ASC Response: The size of the organization warrants a unique benefits
       package to remain competitive, and the costs charged are allocable to the Grant.

        The ASC organization started in June 2000 with 1 employee and did not grow to 4
employees until 200 1. The organization is too small (i.e. 4 employees) to be able to
participate in a group plan that provides low-priced insurance. It is only within the last six
months that we secured a "group" plan. This is why we reimburse employees up to 25% of
their salaries for benefits. Since this is a consistent practice, though it may seem unusual, it
is allowable per OMB Circular A-122, Attachment B, 7f(2) and (3) as a type of self-
insurance. ASC believes that this benefit allows it to secure staff in a highly competitive
employment market.

        Until recently most of our employees have purchased medical insurance from
different carriers. Although they have no purchased plan for vision or dental, they submit
payment for reimbursement, similar to the rules under an IRS "cafeteria" plan for pre-tax
medical. In addition, one employee has participated in her own 40 1-k plan, and thus used a
portion of her benefit as a contribution to her pension plan. At the end of the year,
employees are paid the unused portion as taxable compensation. Since we retain the
documentation to support reimbursement to our employees, our benefit cost should not be
questioned as "unsupported".

        It is our belief that the 25% of salaries is a reasonable benefit expense. We are open
to pursuing a better purchased insurance plan for the ASC organization and we would select
among the lowest most qualified plan. However, we will expect CNCS to increase our
benefit cost in the Grant budget to meet the requirements of a more expensive purchased
insurance plan.

       All of this is currently moot, since all but 1 staff member was terminated effective
August 2,2004. This occurred because ASC did not receive the promised funding for the FY
2004 PTP effort and thus did not have sufficient revenue sources to maintain our staff. When
funds are restored, and staff rehired, the above approach is the one ASC would like to
implement after reviewing it with the Corporation.

       11.     Travel Costs

       OIG Findings:
        According to the OIG, a number of travel expenses were identified that were not
allowable to the Grant based on review of supporting documentation and discussion with
ASC management as shown in Table 3 of the Draft Report. The audit will question these
costs, totaling $12,130.

       ASC Response: We have documentation for two expense items that we believe
should be charged to the Grant. The remaining items will be credited to the Grant for a total
of $7,114.68 as shown in Attachment 1-A, reference no. VIII.

       Our response to the specific transactions identified by the OIG in Table 3 of the Draft
Report is as follows:

       04/26/01 - $704.71. This is an ASC business expense and will be credited to
       the Grant.

       10124101 - $266.08. This is an ASC business expense and will be credited to
       the Grant.

       10/24/01 - $620.85. This is an ASC business expense and will be credited to
       the Gi-ant

       12/04/01 - $304.72. This is an ASC business expense and will be credited to
       the Grant.

       12/04/0 1 - $7 11.01. This is an ASC business expense and will be credited to
       the Grant.

       313 1/02 - $1,220.97. We were unable to support this cost and therefore it will
       be credited to the Grant.

       513 1/02 - $5 15.25. We could not find this transaction in our books and
       records. We asked the OIG to help us to locate the charge that they believe is
       questionable. Since the OIG cannot locate this charge, we request that it not
       be questioned.

       06/02/02 - $5 15.25. We could not find this transaction in our books and
       records. We asked the OIG to help us to locate the charge that they believe is
       questionable. Since the OIG cannot locate this charge, we request that it not
       be questioned.

       06130102 - $3,95 1.00. We believe this is a valid Grant expense as the room
       was used for conference-designated meetings, see the documentation in
       Attachment 11. It is important to note that it is not a premium hotel room.
       The hotel room charge reflects the use of the parlor with a sleeping room
       which was offered by the hotel when no office space was available for the
       conference support work and youth commissioner training which occurred at
       the Salt Lake conference.

       A suite - living room was used for meeting purposes and offices during our
       National Conference. The bedrooms were used for people associated with
       PTP training for commissioners. The daily charge of $595 for 2 people's
       lodging, office and meeting room and is a reasonable expense.

       01/29/03 - $384.00. This is a refund and will be credited to the Grant.

       04/14/03 - $408.84. This is a refund and will be credited to the Grant.

       07/03/03 - $1,064.08. This is a voided check and will be credited to the Grant.
       This charge is a travel expense reimbursement to Terri Hasdorff and was
       disbursed via Check No. 1369 on August 1,2003. The purpose of Terri's
       travel was in support of the 2003 Annual ASC conference. This is a valid
       charge to the Grant, see the documentation in Attachment 12.

       08/14/03 - $1.076.00. This is an ASC business expense and will be credited
       to the Grant.

       08/15/03 - $387.00. This is a refund and will be credited to the Grant.



        We respectfully submit this information to the OIG in response to the Draft Report.
We believe that we have addressed each issue and demonstrated our good faith efforts to
either maintain or correct the records to substantiate the costs, corrected the allocation of
costs or established proper procedures to avoid errors in the future. We continue to review
our records and the A-1 33 audits are soon underway. We reserve the right to clarify,
supplement or correct as necessary any position expressed in this document if additional
information becomes available.
